Office of Inspector General
U.S. General Services Administration



Semiannual Report
to the Congress
April 1, 2005 - September 30, 2005
GSA’s SIGNIFICANT MANAGEMENT CHALLENGES
The Congress requested the Inspectors General of major Federal agencies to report on the most
significant management challenges facing their respective agencies. Our strategic planning
process commits us to addressing these critical issues. The following table briefly describes the
challenges we have identified for GSA and references related work products issued by the GSA OIG
and discussed in this semiannual report.

CHALLENGES                BRIEF DESCRIPTION OF CHALLENGE                                PAGE

ACQUISITION               Merging GSA’s procurement organizations will yield a           3 – 5,
PROGRAMS                  single acquisition service awarding and administering         14 – 23
                          governmentwide contracts worth $40 to $50 billion.
                          With growing programs and shrinking numbers of
                          qualified acquisition personnel, attention to important
                          fundamentals, such as ensuring competition and
                          meaningful price analysis, has diminished.

CONTRACT                  GSA’s multibillion dollar acquisition programs have            5 –7
MANAGEMENT                expanded rapidly in terms of sales, variety, and complexity
                          of the procurements performed. A growing list of warning
                          signs throughout the acquisition process suggests that
                          the technical and management skills needed by the
                          procurement workforce to operate in this more
                          sophisticated arena are not keeping pace with these
                          new demands.

INFORMATION               Technology applications have increased exponentially           7 – 11
TECHNOLOGY                as “E-Gov” is used to better manage operations and
                          interface with the public, but complex integration and
                          security issues exist.

AGING FEDERAL             GSA is being challenged to provide quality space to           11 – 12
BUILDINGS                 Federal agencies using an aging, deteriorating inventory
                          of buildings and facing critical budgetary limitations in
                          its modernization program.

MANAGEMENT                Management controls have been streamlined, resulting          12 – 13
CONTROLS                  in fewer and broader controls, making it essential that
                          the remaining controls be emphasized and consistently
                          followed. The need for strong internal controls underlies
                          several of the other management challenges.

PROTECTION OF             GSA is responsible for protecting the life and safety of      No
FEDERAL FACILITIES        employees and public visitors in Federal buildings. The       Reports
AND PERSONNEL             increased risks from terrorism have greatly expanded the      This
                          range of vulnerabilities. A broadly integrated security       Period
                          program is required.

HUMAN CAPITAL             GSA has an aging workforce and is facing significant loss     No
                          of institutional knowledge due to retirements, including a    Reports
                          loss of key management staff over the past year. Better       This
                          recruitment and training programs are needed to develop       Period
                          the 21st century workforce.
              Foreword




This report, submitted pursuant to the Inspector General Act of 1978, as
amended, summarizes the activities of the Office of Inspector General (OIG) for
the six-month reporting period that ended September 30, 2005.

During the past six months, we continued to work with GSA to identify business
management and operational improvements in the Agency’s programs and
activities. We issued reports focusing on the major challenges facing the
Agency, particularly in the areas of acquisition programs, contract management,
information technology, aging Federal buildings, and management controls.

In cooperation with the Department of Defense (DoD) Office of Inspector
General, we conducted additional audit work designed to respond to
Congressional concerns regarding the Federal Technology Service’s (FTS’)
Client Support Centers’ (CSCs’) compliance with Defense procurement
requirements. Through our 2005 reviews, we determined that the European
CSC was compliant and that the 11 remaining CSCs were making significant
progress toward becoming compliant. We reviewed 182 task orders valued at
$2 billion and found that national controls were implemented in all of the CSCs,
and considerable progress was being made to overcome past procurement
compliance deficiencies. Currently, we are conducting follow-up testing of
controls, in cooperation with the DoD OIG, for the 11 CSCs determined to be not
compliant but making significant progress. We plan to report on this additional
work by March 2006.

During this reporting period, the Administrator has taken steps to begin merging
GSA’s acquisition services — the Federal Supply Service (FSS) and FTS — into
the new Federal Acquisition Service (FAS). The reorganization is intended to
streamline organizational structures and strengthen GSA’s capability to provide
excellent acquisition services to customer agencies at the best value, and to
make it easier for contractors to understand and participate in GSA’s acquisition
processes.

At the same time, in the midst of the merger, the Agency is experiencing
significant human capital challenges, with a significant loss of senior managers,
several layers deep in some organizations, and the array of morale and other
issues concomitant with a major reorganization. Perhaps most notably, as this
report is issued, the Agency will also see the departure of Administrator Perry,
who is leaving GSA as of October 31, 2005, after more than four years of
distinguished leadership and service.

This period, we identified over $682 million in financial recommendations on how
funds could be put to better use. We achieved over $507 million in
management decisions agreeing with audit recommendations, civil settlements,
and direct recoveries. We made 246 referrals for criminal prosecution, civil
litigation, and administrative action. Criminal cases originating from OIG
referrals resulted in 28 successful prosecutions.
             Foreword




On a personal note, this is the first Semiannual Report I am submitting as GSA’s
Inspector General. As I begin my tenure, I look forward to continuing to build on
the OIG’s traditions of excellence and service. I am honored by and welcome
the opportunity to work closely with GSA’s leaders and the Congress to help
ensure the effectiveness, efficiency, and integrity of the Agency’s programs and
operations.




Brian D. Miller
Inspector General
October 31, 2005
          Table of Contents



                                                                                              Page

Summary of OIG Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .v

Fiscal Year 2005 Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vi

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vii

OIG Organization Chart . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .xiv

OIG Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

  Acquisition Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3

  Contract Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5

  Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7

  Aging Federal Buildings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11

  Management Controls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .12

Promoting and Protecting Integrity . . . . . . . . . . . . . . . . . . . . . . . . . .14

Governmentwide Policy Activities . . . . . . . . . . . . . . . . . . . . . . . . . . .25

Professional Assistance Services . . . . . . . . . . . . . . . . . . . . . . . . . . .31

Statistical Summary of OIG Accomplishments . . . . . . . . . . . . . . . . .33

Appendices

Appendix I – Significant Audits from Prior Reports . . . . . . . . . . . . .41

Appendix II – Audit Report Register. . . . . . . . . . . . . . . . . . . . . . . . .44

Appendix III – Audit Reports over 12 Months Old with Final
 Action Pending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .54

Appendix IV – Delinquent Debts. . . . . . . . . . . . . . . . . . . . . . . . . . . .65

Appendix V – Reporting Requirements . . . . . . . . . . . . . . . . . . . . . .67

Appendix VI – OIG Offices and Key Officials . . . . . . . . . . . . . . . . . .68

This semiannual report may be accessed on the Internet at the following
address: http://www.gsa.gov/inspectorgeneral


                                                                         Office of Inspector General iii
                      Summary of OIG Performance



OIG Accomplishments    April 1, 2005 – September 30, 2005

                       Total financial recommendations                               $689,855,971

                       These include:

                       • Recommendations that funds be put to better use              $682,286,350

                       • Questioned costs                                              $7,569,621

                       Audit reports issued                                                 85

                       Referrals for criminal prosecution, civil
                       litigation, and administrative action                               246

Results Attained       Management decisions agreeing with audit
                       recommendations, civil settlements, and
                       court-ordered and investigative recoveries                     $507,575,881

                       Indictments and informations on criminal referrals                   63

                       Cases accepted for criminal prosecution                              35

                       Cases accepted for civil action                                       9

                       Successful criminal prosecutions                                     28

                       Civil settlements and judgements                                      9

                       Contractors/individuals debarred                                     38

                       Contractors/individuals suspended                                    40

                       Employee actions taken on administrative referrals
                       involving GSA employees                                              13




                                                                            Office of Inspector General v
                                        Fiscal Year 2005 Results



                                       During Fiscal Year (FY) 2005, OIG activities resulted in:

                                       • Over $1 billion in recommendations that funds be put to better use and in
                                         questioned costs. If adopted, these recommendations ultimately result in
                                         savings for the taxpayer.

                                       • 183 audit reports that assisted management in making sound decisions
                                         regarding Agency operations.

                                       • $543 million in management decisions agreeing with audit
                                         recommendations; civil settlements; and court-ordered, audit, and
                                         investigative recoveries.

                                       • 228 new investigations opened and 171 cases closed.

                                       • 60 case referrals (189 subjects) accepted for criminal prosecution and
                                         14 case referrals (19 subjects) accepted for civil litigation.

                                       • 103 criminal indictments/informations and 48 successful prosecutions on
                                         criminal matters referred.

                                       • 11 civil settlements and judgements.

                                       • 29 employee actions taken on administrative referrals involving GSA
                                         employees.

                                       • 56 contractor/individual suspensions and 62 contractor/individual
                                         debarments.

                                       • 212 legislative matters and 44 regulations and directives reviewed.

                                       • 2,190 Hotline calls and letters received of which 198 warranted further
                                         GSA action.




vi Semiannual Report to the Congress
                     Executive Summary



                During this period, the OIG continued to direct its audit, investigative, and
                evaluative resources to address what we believe to be the major
                management challenges facing the Agency. We provided a wide variety of
                services, including program and financial audits; management control
                assessments; contract reviews; and investigative coverage and litigation
                support in civil fraud and enforcement actions, criminal prosecutions,
                contract claims, and administrative actions. We also continued to provide
                professional assistance services and reviews of proposed legislation and
                regulations.

                Management Challenges
                We have highlighted a number of reviews that address major management
                issues facing GSA. We continued our work in addressing these challenges,
                making recommendations, and working with management to improve
                Agency operations. During this period, our efforts included work focusing on
                acquisition programs, contract management, information technology (IT),
                aging Federal buildings, and management controls. We did not issue any
                reports on the two remaining challenges — human capital and the protection
                of Federal facilities and personnel. Work is underway in these areas, and
                we expect reports to be issued in FY 2006.

                Major Agency Issues
                On September 9, 2005, the Administrator signed the order to establish the
                Federal Acquisition Service (FAS), merging GSA’s acquisition services — the
                Federal Supply Service (FSS) and Federal Technology Service (FTS). The
                goal of this major reorganization is to streamline organizational structures
                and strengthen GSA’s capability to provide excellent acquisition services to
                customer agencies at the best value, and to make it easier for contractors to
                understand and participate in GSA’s acquisition processes. However,
                combining segments of FSS and FTS operations into a new organization will
Agency issues   create management challenges in these areas. Also, as part of the
                reorganization, the Office of the Chief Financial Officer (OCFO) is planning
                for the merger of the Information Technology and General Supply Funds into
                the Acquisition Service Fund. In merging these two revolving funds,
                management will be faced with the significant challenge of ensuring that the
                transition process does not adversely impact operations and that sufficient
                controls are in place over the new fund. In addition to facing major changes
                to its program structures and organizational alignments, the Agency is
                confronted with a significant loss of senior executives. With their departure
                goes a great reservoir of seasoned experience, knowledge of Agency
                operations, and established business relationships. Within calendar
                year 2005, the positions of Administrator, the three service commissioners,
                as well as several other senior management positions have seen their
                incumbents depart, creating substantial human capital challenges that must
                be addressed promptly (page 2).




                                                                   Office of Inspector General vii
                                              Executive Summary



                                         Acquisition Programs
                                         Since FY 2002, we have been reviewing contracting practices at FTS’ Client
                                         Support Centers (CSCs), identifying numerous improper task orders and
                                         contract awards. As a result of our work, the Administrator and FTS
                                         Commissioner undertook a number of corrective actions, including the “Get it
                                         Right” initiative, launched in conjunction with the Department of Defense’s
                                         (DoD’s) Director of Defense Procurement and Acquisition Policy. This
                                         initiative was designed to ensure the proper use of contract vehicles and
 FTS contracting practices               services, and includes educating and training acquisition employees,
 and Agency improvement                  aligning performance measures with program goals and standards,
         actions                         publishing new contracting regulations and procedures, and validating the
                                         proper use of GSA contract vehicles and services. In cooperation with the
                                         DoD Office of Inspector General, we conducted additional audit work
                                         designed to respond to Congressional concerns regarding the CSCs’
                                         compliance with Defense procurement requirements. Through our 2005
                                         reviews, we determined that the European CSC was compliant and that the
                                         11 remaining CSCs were making significant progress toward becoming
                                         compliant. We reviewed 182 task orders valued at $2 billion and found that
                                         national controls were implemented in all of the CSCs, and considerable
                                         progress was being made to overcome past procurement compliance
                                         deficiencies. Currently, we are conducting follow-up testing of controls, in
                                         cooperation with the DoD OIG, for the 11 CSCs determined to be not
                                         compliant but making significant progress. We plan to report on this
                                         additional work by March 2006 (page 3).

                                         GSA’s Office of Global Supply directs the policy, programs, and worldwide
                                         operations for the Stock, Special Order, and Expanded Direct Delivery
                                         Program (EDD). In the spring of 2003, Global Supply began offering office
                                         products and tools to GSA customers through EDD. Global Supply awarded
                                         two EDD blanket purchase agreements (BPAs) — Office Products, with an
                                         approximate two-year value of $45 million, and Tools, with an approximate
                                         two-year value of $55 million. To ensure the timely processing of customer
 Expanded Direct Delivery                orders, the Statement of Work included a performance metric for 95 percent
        Program                          of orders to be delivered within seven days of receipt. Based on a sample of
                                         orders, we found that the vendors had order fill rates of 82 to 88 percent. In
                                         addition, we found a number of backorders, some as old as 200 days. In
                                         our report, we recommended that Global Supply establish incentives for
                                         EDD contractors to achieve performance metrics on order fills and back
                                         orders. In addition, questions concerning competition and price analysis
                                         have been raised since Global Supply is planning to expand the EDD
                                         program using BPAs with tool and supply companies that already have
                                         Multiple Award Schedule (MAS) contracts for other products. We
                                         recommended that EDD incorporate changes to competition or price
                                         analysis strategies suggested by Agency counsel and FSS into EDD policies
                                         and procedures (page 4).




viii Semiannual Report to the Congress
                              Executive Summary



                         Contact Management
                         The Western Service Center (WSC), located in Seattle, Washington,
                         manages 35 government-owned buildings and space leased in
                         114 commercial buildings located in the State of Washington. Our review
Western Service Center
                         focused on the propriety of WSC procurements and the effectiveness of
        review           contract administration. We concluded that the WSC adhered to applicable
                         laws, regulations, and established policies and procedures when conducting
                         procurements. Additionally, contract administration was generally effective.
                         However, we did note the need to improve the file documentation for some
                         procurement actions, purchase card transactions, and travel vouchers
                         (page 5).

                         The Contract Management Center within FSS has undertaken the Contractor
                         Assessment Initiative to assess contractor performance and increase the
                         value of the MAS program to its customers. While several Contractor
                         Assessment Initiative components are planned, only the Administrative
Contractor Assessment    Report Card has been implemented at this time. The Report Card was
       Initiative        created to assist contracting officers in making decisions about exercising
                         contract options and awarding additional contracts. In our review of the
                         Report Card, we found that the current format, content, and rating and
                         weighting system for the questions affect the reliability of the contractor
                         performance rating and do not address several key contractual issues
                         (page 6).

                         Information Technology
                         The Federal Information Security Management Act (FISMA) requires Federal
                         agencies to develop, document, and implement an agency-wide information
                         security program to secure Federal information systems. GSA has
                         developed an IT Security Program, which continued to make progress in
                         2005, but challenges remain with implementation. A closer look at required
 IT Security Program     security controls for ten systems identified areas where additional
                         improvements are needed. For example, GSA’s system Certification and
                         Accreditation process was not consistently implemented for the systems
                         reviewed, and Plans of Action and Milestones were not always being used to
                         effectively mitigate known security weaknesses. System contingency plans
                         were not always developed and tested. Some system owners were not
                         comprehensively identifying and managing technical security weaknesses for
                         their systems. In addition, background checks were not always completed
                         for contractors before granting them access to sensitive GSA systems, a
                         condition reported in 2003 and 2004 (page 7).

                         The Comprehensive Human Resources Integrated System (CHRIS) is GSA’s
Comprehensive Human      Web-based Human Resources (HR) system. It is based on a commercial-
 Resources Integrated    off-the-shelf product and customized to support a range of HR and reporting
                         functions intended to meet the needs of GSA and its approximately
       System
                         8,600 external customers. We found that although the original intent for
                         CHRIS was to provide a comprehensive, integrated HR system, GSA’s


                                                                           Office of Inspector General ix
                                           Executive Summary



                                      strategic efforts with the system have been impeded by user reluctance to
                                      use the system and the availability of duplicative system functionality
                                      provided by other GSA systems. GSA has also faced challenges in
                                      marketing CHRIS to new customers. Due to an insufficient customer base,
                                      CHRIS is not recovering costs or generating the revenue originally expected.
                                      We issued a restricted letter report that identified specific technical control
                                      vulnerabilities for the CHRIS Oracle database that, if exploited, could
                                      compromise the confidentiality, integrity, and availability of the system. In
                                      addition, several areas of system security risk that could lead to system
                                      vulnerabilities or unnecessary risk were identified through our annual review
                                      as part of our responsibilities under FISMA (page 8).

                                      GSA Advantage!TM (Advantage) is an Internet catalog and ordering system,
                                      accessible 24 hours a day, seven days a week, that allows over
                                      400,000 registered Federal Government customers worldwide to obtain
                                      information on over nine million products and services from more than
                                      14,000 GSA and Department of Veterans Affairs (VA) Schedule vendor
                                      contracts and from GSA warehouses. Advantage is intended to save
                         TM
     GSA Advantage!                   customers time and money by reducing acquisition paperwork, streamlining
                                      the online purchasing process, and providing best value with electronic
                                      access to MAS products and services. While sales through Advantage have
                                      grown from less than $5 million in FY 1996 to nearly $300 million through
                                      August of 2005, they account for only about 10 percent of orders that could
                                      be processed through the system. In our review, we found specific shortfalls
                                      with the Advantage management, funding, and planning process, including
                                      the absence of a consolidated group or designated individual responsible for
                                      the system. In addition, we observed a lack of a clear process for prioritizing
                                      system requirements. We also noted that some vendors complain of
                                      delayed visibility of their products when they upload their files — deficient
                                      programs, processes, and file capacity contributed to these problems.
                                      Finally, we noted that FSS has spent more than $1.9 million developing five
                                      virtual stores as a marketing device for Advantage; however, customers are
                                      not using these stores as expected (page 10).

                                      Aging Federal Buildings
                                      It has been a struggle for GSA to keep up with the growing repair and
                                      modernization needs of its inventory of 1,200 buildings. At the end of
                                      FY 2004, GSA estimated that the cost of needed repair and alteration work
                                      had grown to over $6 billion, 50 percent higher than five years earlier. The
   Repair and Alterations             backlog is growing due to the lack of available funding for these projects.
         Program                      The projects are funded yearly through the Federal Buildings Fund (FBF), a
                                      revolving fund financed by rents received from other agencies. However, the
                                      fund has not generated sufficient income over the years to keep up with all
                                      of the needs of GSA’s buildings. The OIG performed an audit to determine if
                                      GSA has an effective strategy to repair and modernize federally-owned
                                      buildings. We found that the Public Buildings Service (PBS) has developed
                                      a methodology using multiple information systems to identify building


x Semiannual Report to the Congress
                                 Executive Summary



                            deficiencies and then to inventory and schedule the repair and alteration
                            projects for its buildings. However, the methodology is not being
                            implemented on a consistent basis. In addition, PBS has not fully developed
                            its strategy to repair or modernize its buildings, nor does it establish the
                            relative benefits and priorities of all competing projects (page 11).

                            Management Controls
                            Stemming from an FY 2004 Alert Report on GSA’s Construction in Progress
                            (CIP) account balance, we issued separate reports to the OCFO and PBS
                            on the controls over the statistical sample adjusting journal entry as recorded
 Construction in Progress   in the FBF. In our audit of PBS, we found that the controls over the data
         review             used in the preparation of the statistical sample need improvement, and that
                            PBS needs to improve the documentation of the internal controls over CIP
                            reporting. Our audit of the OCFO found that action is needed to strengthen
                            the internal controls over the review and approval of adjusting journal
                            entries. This control weakness was considered a reportable condition in the
                            FY 2003 and FY 2004 Financial Statement Audits (page 13).

                            Promoting and Protecting Integrity
                            In our ongoing efforts to promote and protect the integrity of GSA’s programs
                            and operations, we aggressively conduct investigations and pursue the
                            prosecution of individuals and companies committing criminal and civil fraud
                            and other offenses that impact GSA programs. A number of these
                            investigations have led to enforcement actions during this semiannual
                            period, including:

Criminal Actions            • David H. Safavian, GSA’s former Chief of Staff, was arrested on charges
                              of making false statements and obstructing GSA proceedings. The
                              affidavit filed in support of the criminal complaint alleged that while serving
                              as GSA’s Chief of Staff, Safavian aided a Washington, DC lobbyist in the
                              lobbyist’s attempts to acquire GSA-controlled property in and around
                              Washington, DC, and made false statements to GSA officials. Mr.
                              Safavian was subsequently indicted on charges of making false
                              statements and obstructing GSA and U.S. Senate proceedings (page 14).

                            • During this reporting period, two former GSA building managers and two
                              GSA contractors were sentenced in cases stemming from an investigation
                              involving the illegal awarding of contracts for a Federal Courthouse in
                              Chicago in exchange for bribes and kickbacks. One building manager
                              was sentenced to 30 months incarceration followed by 36 months of
                              supervised probation and ordered to pay $45,000 in restitution; the other
                              building manager was sentenced to 12 months probation and ordered to
                              pay restitution. In addition, one contractor was sentenced to home
                              confinement with electronic monitoring for eight months followed by
                              60 months probation, and ordered to pay $11,180 in restitution and a
                              $4,000 fine. The other contractor was sentenced to three years probation
                              and ordered to pay $12,000 in restitution and a $1,200 fine (page 15).


                                                                                Office of Inspector General xi
                                             Executive Summary



                                        • Two co-owners of Woodcraft Manufacturing, Inc., a construction company,
                                          pled guilty to defrauding the United States of over $37,000. The company
                                          was awarded a subcontract to supply and install natural cherry wood
                                          millwork in the U.S. Federal Courthouse in Montgomery, Alabama, but
                                          instead installed poplar wood millwork (page 15).

                                        • A project manager of a GSA contractor made illegal payoffs to numerous
                                          employees that were empowered to oversee a construction contract with
                                          the New York City Transit Authority. He was sentenced to serve three
                                          years probation and ordered to pay $300,000 in restitution and a
                                          $10,000 fine (page 15).

                                        • A former employee of a GSA contractor pled guilty to theft of government
                                          electronic equipment. He was sentenced to one year probation and
                                          ordered to pay $2,500 in restitution and a $2,500 fine (page 16).

                                        • An employee of an automotive service center stole a GSA vehicle, which
                                          had been leased to the VA Medical Center, after it had been left for
                                          repairs. He was sentenced to five months in prison, three years
                                          supervised probation, and ordered to pay $4,966 in restitution (page 16).

                                        • Eight fleet charge card abuse cases resulted in the sentencing of nine
                                          individuals with restitution totaling nearly $36,000 (page 16).

Civil Actions                           • PriceWaterhouseCoopers (PWC) agreed to pay $41.9 million to settle a
                                          qui tam complaint relating to overcharges on travel-related expenses.
                                          The complaint alleged that PWC routinely failed to pass along to the
                                          government rebates it received from travel providers such as airlines,
                                          hotels, and rental car companies (page 17).

                                        • Humanscale Corporation, a New York-based company, agreed to pay
                                          $9 million to settle allegations that it failed to disclose current, accurate,
                                          and complete pricing information under three of its GSA MAS contracts for
                                          ergonomic office equipment and furniture. The settlement also resolved
                                          allegations that the company failed to comply with the price reduction
                                          clause under these same three MAS contracts (page 18).

                                        • Oracle Corporation (Oracle) agreed to pay the government $8 million to
                                          settle a qui tam complaint relating to overcharges on its computer
                                          software training and education contracts with GSA. The government’s
                                          investigation found that the company had been billing Agency customers
                                          in advance for training courses and cashing in the payments on the
                                          unused courses. In addition, Oracle charged the government a
                                          predetermined, higher amount for its employees’ travel expenses, rather
                                          than passing along the actual expenses, as required in its GSA contract
                                          (page 18).




xii Semiannual Report to the Congress
     Executive Summary



• Three companies that provide office supplies to the government, including
  OfficeMax, Incorporated, Office Depot, Incorporated, and Caddo Design
  and Office Products, paid the government $14.65 million collectively to
  settle allegations that they violated the Trade Agreements Act in
  performing their MAS contracts (page 19).

• Intelligent Decisions, Incorporated, a Chantilly, Virginia-based company,
  agreed to pay the government over $1.6 million to settle allegations that
  the company underreported total sales under its MAS contract for the sale
  of IT hardware, software, and services resulting in the underpayment of its
  Industrial Funding Fee (page 19).

• Trans Union LLC agreed to pay the government $1.32 million to settle a
  potential civil False Claims Act case relating to overcharges on its credit
  reporting services and products. The case stemmed from a voluntary
  disclosure by Trans Union to the OIG that it had violated the price
  reduction and overbillings provisions of a 1995 MAS contract for personal
  data reports and related services (page 19).

• Turner Construction Company reached an agreement with the
  government to settle a potential civil False Claims Act and kickback case
  relating to overcharges on its construction contracts with GSA, the Navy,
  VA, and a number of other agencies, under which it agreed to make
  payments and concessions totalling $9,535,345 (page 20).

• Sprint Corporation agreed to pay $337,752 to settle a qui tam complaint
  relating to overcharging the government for telecommunications services
  (page 20).

• The president of Levin Associates Architects was found to have violated
  the civil False Claims Act by overcharging GSA for the work his company
  had done on a new water system in a leased building. He was ordered to
  pay treble damages and civil penalties totalling $31,317 (page 20).

Summary of Results
The OIG made over $682 million in financial recommendations to better use
government funds; made 246 referrals for criminal prosecution, civil litigation,
and administrative actions; reviewed 148 legislative and regulatory actions;
and received 1,093 Hotline contacts. This period, we achieved savings from
management decisions on financial recommendations, civil settlements, and
investigative recoveries totaling over $507 million. (See page v for a
summary of this period’s performance.)




                                                   Office of Inspector General xiii
                                        OIG Organization Chart




                                            Inspector General
     Office of Counsel to the IG              Brian D. Miller       Office of Internal Evaluation
          Kathleen S. Tighe              Deputy Inspector General        James A. Amoroso
          Counsel to the IG                                                    Director
                                              Joel S. Gallay



 Office of Administration                      Office of Audits            Office of Investigations
     John C. Lebo, Jr.                        Eugene L. Waszily             James E. Henderson
  AIG for Administration                       AIG for Auditing             AIG for Investigations

        Human                                     Audit                           Field Support
       Resources                               Operations &
        Division                               Administration
                                                                                  Zone Offices
                                                                                 Washington, DC
       Information                               Information                       New York
       Technology                                Technology                         Chicago
         Division                                Audit Office                      Fort Worth
                                                                                 San Francisco

     Administrative                                 Real
      & Financial                                 Property                             Sub-Offices
     Management                                  Audit Office                          Philadelphia
       Division                                                                          Boston
                                                 Finance &                             Kansas City
                                                                                         Atlanta
                                                Administrative
                                                                                       Auburn (WA)
                                                 Audit Office


                                                 Acquisition
                                                  Programs
                                                 Audit Office


                                                 Field Audit
                                                   Offices
                                               Washington, DC
                                                  Boston
                                                 New York
                                                Philadelphia
                                                  Atlanta
                                                  Chicago
                                                Kansas City
                                                 Fort Worth
                                               San Francisco


                                                       Sub-Office
                                                      Auburn (WA)


xiv Semiannual Report to the Congress
                                  OIG Profile



                      The GSA OIG was established on October 1, 1978 as one of the original
                      12 OIGs created by the Inspector General Act of 1978. The OIG’s five
                      components work together to perform the missions mandated by Congress.

Organization          The OIG provides nationwide coverage of GSA programs and activities. Our
                      components include:

                      • The Office of Audits, an evaluative unit staffed with auditors and analysts
                        who provide comprehensive coverage of GSA operations through program
                        performance reviews, assessment of management controls, and financial
                        and compliance audits. The office also conducts external reviews in
                        support of GSA contracting officials to ensure fair contract prices and
                        adherence to contract terms and conditions. The office additionally
                        provides research, benchmarking, and other services to assist Agency
                        managers in evaluating and improving their programs.

                      • The Office of Investigations, an investigative unit that manages a
                        nationwide program to prevent and detect illegal and/or improper activities
                        involving GSA programs, operations, and personnel.

                      • The Office of Counsel, an in-house legal staff that provides legal advice
                        and assistance to all OIG components, represents the OIG in litigation
                        arising out of or affecting OIG operations, and manages the OIG
                        legislative/regulatory review and Congressional liaison functions.

                      • The Office of Internal Evaluation, a quality control staff that provides
                        coverage of OIG operations primarily through management assessments
                        and conducts internal investigations and reviews at the direction of the
                        Inspector General.

                      • The Office of Administration, a professional staff which provides
                        information technology, budgetary, administrative, personnel, and
                        communications support and services to all OIG offices.

Office Locations      The OIG is headquartered in Washington, DC, at GSA’s Central Office
                      Building. Field audit and investigation offices are maintained in Boston, New
                      York, Philadelphia, Atlanta, Chicago, Kansas City, Fort Worth, San
                      Francisco, Auburn, and Washington, DC. (A contact list of OIG offices and
                      key officials is provided in Appendix VI.)

Staffing and Budget   As of September 30, 2005, our on-board strength was 296 employees. The
                      OIG’s Fiscal Year (FY) 2005 budget was $46.4 million.




                                                                         Office of Inspector General 1
                                       Management Challenges



                                      Each year since 1998, we have identified and shared with Congress and
                                      senior GSA management what we believe to be the major challenges facing
                                      the Agency. (The current list is summarized on the front inside cover.) This
                                      period we continued our work in addressing these challenges, making
                                      recommendations, and working with management to improve Agency
                                      operations. The following sections highlight our activities in these areas. In
                                      addition, we are addressing our concerns regarding a major reorganization
                                      and restructuring of GSA’s acquisition activities currently being implemented.

                                      Major Agency Issues
                                      On September 9, 2005, the Administrator signed an order to establish the
                                      Federal Acquisition Service (FAS), merging GSA’s acquisition services — the
                                      Federal Supply Service (FSS) and Federal Technology Service (FTS). The
                                      goal of this reorganization is to streamline organizational structures and
                                      strengthen GSA’s capability to provide excellent acquisition services to
     Acquisition                      customer agencies at the best value and to make it easier for contractors to
  programs — a new                    understand and participate in GSA’s acquisition processes. The plan calls
  organization poses                  for FAS to operate on a cost recovery basis and to provide clear lines of
                                      accountability for business lines. Currently, there are approximately
   new challenges.                    3,000 full-time equivalent employees in FSS and 1,500 in FTS. The annual
                                      value of contract actions is between $40 and $50 billion with revenues now
                                      exceeding $11 billion. The two Services have their own fee structures,
                                      information systems, policies, procedures, and management controls.
                                      Combining segments of FSS and FTS operations into a new organization
                                      will create management challenges in these areas.

                                      At the same time GSA is attempting to combine its two procurement
                                      organizations, cash-strapped customer agencies are following the advice of
                                      the Office of Management and Budget (OMB) and are developing strategic
                                      sourcing procurement programs. Under this approach, agencies consolidate
                                      their common requirements into one or a few awards, with the expectation
                                      that suppliers will offer substantially lower prices. This practice is being used
                                      more frequently and presents a new dynamic that GSA must factor into its
                                      business lines.

                                      As part of the reorganization, the Office of the Chief Financial Officer
                                      (OCFO) is planning for the merging of the Information Technology and
                                      General Supply Funds into the Acquisition Service Fund. This merger must
                                      receive Congressional approval. In merging these two revolving funds,
                                      management will be faced with the significant challenge of ensuring that the
                                      transition process does not adversely impact operations and that appropriate
                                      controls are in place over the new fund. Throughout the FTS/FSS
                                      reorganization process, GSA has relied on Steering Teams to promote a
                                      seamless merger. The OCFO Steering Team is addressing the requirements
                                      for merging the Information Technology and General Supply Funds utilizing a
                                      team of employees with expertise in the areas of financial policy, financial
                                      systems, and budgetary policy.


2 Semiannual Report to the Congress
                        Management Challenges



                       In the midst of the merger, the Agency is experiencing significant human
                       capital challenges, with a significant loss of senior managers, several layers
                       deep in some organizations, and the array of morale and other issues
                       concomitant with a major reorganization. Perhaps most notably, as this
                       report is issued, the Agency will also see the departure of Administrator
                       Perry, who is leaving GSA as of October 31, 2005, after more than four
                       years of distinguished leadership and service.

                       In our 2005 update of significant management challenges facing the Agency,
                       we broadened the challenge on procurement activities to reflect the
                       significance of the Agency restructuring and the impact on operations. This
                       new challenge is titled acquisition programs.

                       Acquisition Programs
                       GSA provides Federal agencies with products and services valued in the
                       billions of dollars through various types of contracts. We conduct reviews of
                       these activities to ensure that the taxpayers’ interests are protected.

                       FTS Contracting Practices and Agency Improvement Actions
                       Since FY 2002, we have been performing reviews of contracting practices at
                       FTS’ Client Support Centers (CSCs). Initially, our review of three regional
    Prior audits       CSCs identified numerous improper task order and contract awards,
                       including improper sole source awards, misuse of small business contracts,
revealed significant   allowing work outside the contract scope, improper order modifications,
   irregularities.     frequent inappropriate use of time-and-materials task orders, and not
                       enforcing contract provisions. In response to this review, FTS initiated a
                       number of improvement actions to ensure controls are in place in each CSC.

                       Subsequent to our initial report, the Administrator requested that we analyze
                       the contracting practices in the other nine regional CSCs and the effect of
                       improvement actions. The Chairman of the Senate Finance Committee had
                       also requested that we provide continuing oversight to ensure that
                       deficiencies identified were addressed appropriately.

                       In FY 2004, CSC procurements exceeded $5.4 billion, with Department of
                       Defense (DoD) customers representing about 85 percent of the business. In
                       July 2004, the GSA Administrator, in conjunction with DoD’s Director of
    Congress           Defense Procurement and Acquisition Policy, launched the “Get it Right”
 mandates a joint      initiative to ensure proper contracting practices. This initiative includes
                       educating and training acquisition employees, aligning performance
  review by the        measures, publishing new contracting regulations and procedures, and
  DoD OIG and          validating the proper use of GSA contract vehicles and services.
    GSA OIG.
                       In the Ronald W. Reagan National Defense Authorization Act for FY 2005,
                       Congress mandated that the Inspectors General of GSA and DoD jointly
                       review each CSC and determine by March 15, 2005, whether the CSC is:
                       compliant with defense procurement requirements; not compliant; or not


                                                                           Office of Inspector General 3
                                       Management Challenges



                                      Acquisition Programs (continued)

                                      compliant but making significant progress toward becoming compliant. In
                                      our 2005 reviews, we determined that the European CSC was compliant and
                                      that the 11 remaining CSCs were not compliant but making significant
                                      progress. In these additional reviews, we conducted a comprehensive
                                      testing of management controls throughout the CSC program by reviewing
                                      182 task orders valued at over $2 billion, including a random sample of new
                                      orders and a judgmental sample of modifications to existing orders. We
                                      found that national controls were implemented in all of the CSCs and that
                                      considerable progress was being made to overcome past procurement
                                      compliance deficiencies. We issued our compendium report on
                                      June 14, 2005.

                                      As also mandated in the Act, we are conducting follow-up testing of controls,
                                      in cooperation with the DoD Office of Inspector General, for the 11 CSCs we
                                      determined to be not compliant but making significant progress. This audit
                                      work is designed to test the effectiveness of both GSA and DoD
                                      procurement improvements, including the joint “Get it Right” initiative, and to
                                      respond to Congressional concerns regarding the CSCs’ compliance with
                                      the Federal Acquisition Regulation (FAR) and Defense procurement
                                      requirements. We plan to report on this additional audit work by
                                      March 2006.

                                      Office of Global Supply’s Expanded Direct Delivery Program
                                      GSA’s Office of Global Supply directs the policy, programs, and worldwide
                                      operations for the Stock, Special Order, and Expanded Direct Delivery
                                      Program (EDD). In the spring of 2003, Global Supply began offering office
                                      products and tools to GSA customers through EDD. The intent of the
                                      program was to offer a greater variety of products to GSA customers from
                                      GSA stock and vendors through a single point of sale.

                                      Global Supply has awarded two EDD blanket purchase agreements (BPAs)
                                      — Office Products, with an approximate two-year value of $45 million, and
                                      Tools, with an approximate two-year value of $55 million. Customers
                                      worldwide are able to order over 10,000 new products from both of these
                                      categories using EDD.

                                      To ensure the timely processing of customer orders, the EDD BPA Statement
                                      of Work includes a performance metric for 95 percent of orders to be
                                      delivered within seven days of receipt. Based on a sample of three
                                      transaction days, we found that the vendors had order fill rates of only 82 to
                                      88 percent. In addition, we found a number of back orders, including some
                                      as old as 200 days. Global Supply conducts periodic teleconference
                                      discussions with both vendors addressing back orders, billing, and analysis
                                      of Global Supply exception reports on customer orders, in an effort to
                                      improve vendor performance. However, because the BPAs do not include


4 Semiannual Report to the Congress
                      Management Challenges



                     Acquisition Programs (continued)

                     incentives for timely order processing or penalties for failing to do so, and
                     because a performance metric for timely filling of back orders does not exist,
                     the vendors may not be as diligent as expected. Delayed shipping and back
  Contractors not    orders can negatively impact Federal customers’ confidence in the program
                     and use of EDD.
 achieving GSA’s
  timely delivery    Global Supply is planning to expand the EDD program using BPAs with tool
                     and supply companies who already have Multiple Award Schedule (MAS)
 goals; incentives   contracts for other products; however, questions concerning competition and
needed to improve    price analysis have been raised. Currently, GSA’s General Counsel and the
   performance.      FSS’ Acquisition Management Center are working on responses to these
                     questions.

                     In our June 6, 2005 report, we recommended that Global Supply establish
                     incentives for EDD contractors to achieve performance metrics on order fills
                     and back orders. We also recommended that EDD incorporate changes to
                     competition or price analysis strategies suggested by Agency counsel and
                     FSS into EDD policies and procedures.

                     Contract Management
                     GSA increasingly accomplishes its mission by using contractors to provide
                     client services and products. Its multibillion dollar acquisition programs have
                     expanded rapidly in terms of size, variety, and complexity of the
                     procurements performed. While many GSA contracts are well crafted and
                     properly administered, we are finding an increasing number of weaknesses.
                     Our audit work in recent years has revealed a growing list of warning signs
                     throughout the acquisition process that suggests the technical and
                     management skills needed by the procurement workforce to operate in this
                     more sophisticated arena are not keeping pace with these new demands.

                     Review of Northwest/Arctic Region Public Buildings Service Western
                     Service Center
                     The Western Service Center (WSC), located in Seattle, Washington,
                     manages 35 government-owned buildings and space leased in
                     114 commercial buildings located in the state of Washington. Workload for
                     the staff of 53 employees includes procurement, finance, customer service,
                     leasing, and GSA property management. Our review focused on the
                     propriety of WSC procurements and the effectiveness of contract
                     administration.

                     We concluded that the WSC adhered to applicable laws, regulations, and
                     established policies and procedures when conducting procurements.
                     Additionally, contract administration was generally effective, assuring that
                     quality and quantity of goods and services received were what the
                     government ordered. We did note the need to improve the file


                                                                         Office of Inspector General 5
                                       Management Challenges



                                      Contract Management (continued)

                                      documentation for some procurement actions, purchase card transactions,
                                      and travel vouchers. We also found that the level of security in one GSA
                                      building could have been compromised because the janitorial service
                                      contractor did not distribute and collect employee identification badges daily
                                      in accordance with contract terms, nor return the badges to the GSA building
                                      manager when employees were terminated.

                                      In our June 13, 2005 report to the Acting Regional Administrator, we
                                      recommended that the building manager establish a system to ensure that
                                      contractors properly control daily distribution and collection of employee
                                      identification badges and turn in badges for terminated employees. We also
                                      recommended that contracting officers include documentation of their
                                      evaluations of fair and reasonable pricing in the task order files. Finally, we
                                      recommended that purchase card statements and related invoices be filed in
                                      a secured central location and that travelers include a copy of their
                                      itineraries with their travel vouchers.

                                      Contractor Assessment Initiative
                                      FSS is responsible for the MAS Program, which involves close to
                                      17,000 long-term governmentwide contracts with commercial firms. The
                                      Contract Management Center within FSS has undertaken the Contractor
                                      Assessment Initiative to assess contractor performance and increase the
                                      value of the MAS program to its customers. While several Contractor
                                      Assessment Initiative components are planned, only the Administrative
                                      Report Card has been implemented at this time. The Report Card was
                                      created to assist contracting officers (COs) in making decisions about
                                      exercising contract options and awarding additional contracts.

                                      In our review of the Report Card, we identified shortcomings that have a
                                      direct impact on its usefulness. The current format, content, and rating and
  Lack of availability                weighting system for the questions affect the reliability of the contractor
                                      performance rating and do not address several key contractual issues. Also,
       and user                       the lack of Report Card availability and user awareness affect the value of
  awareness limit the                 the initiative. Report Cards for expiring contracts are not always created and
   usefulness of the                  available for the CO to use when making a contract extension determination.
                                      Additionally, foreign contractors are not being held to the same standards as
    “Report Card”                     their domestic counterparts. Only a small percentage of foreign contractors
       initiative.                    were visited and had a Report Card produced during FY 2004. We also
                                      determined that there is insufficient guidance on the proper methods to
                                      complete the Report Card and a lack of guidance for following up with the
                                      contractors regarding their Report Card deficiencies. This resulted,
                                      respectively, in varying completion methods and diminished the opportunity
                                      for contractor improvement.




6 Semiannual Report to the Congress
                     Management Challenges



                    Contract Management (continued)

                    Prior to and in conjunction with our review, the Contract Management Center
                    identified some shortcomings and drafted revisions to the Report Card. In
                    an effort to provide management with timely comments, we issued an interim
                    audit memorandum on February 10, 2005, outlining our preliminary
                    observations on the format and content of the current Report Card as well as
                    the proposed revisions. Management incorporated these observations into
                    the revised Report Card scheduled to be released early in FY 2006.

                    In our September 29, 2005 report, we recommended that management
                    ensure that the Report Card includes all significant contractual areas, fairly
                    evaluates contractors’ performance, and is completed and used properly to
                    promote improvement.

                    Management concurred with our recommendations.

                    Information Technology
                    GSA is in the process of replacing a number of its old information systems to
                    improve performance and take advantage of technological advances. Since
                    GSA has had difficulty sharing usable data between systems, many of the
                    new IT projects are intended to go beyond automating current business
                    functions and to create real change in the way that GSA does business.
                    However, GSA systems development projects have typically experienced
                    significant schedule delays and cost overruns, the need for frequent
                    redesign, and a prolonged period of time in development.

                    GSA’s Information Technology Security Program
                    The Federal Information Security Management Act (FISMA) requires Federal
                    agencies to develop, document, and implement an agency-wide information
                    security program to secure Federal information systems. GSA has
 More consistent    developed an Information Technology (IT) Security Program, which
implementation of   continued to progress in 2005, but challenges remain with implementation.
                    In the past year, the agency-wide IT security policy, procedural guides,
    IT security     technical guides, and security awareness and training have been updated to
  provisions and    reflect changes with National Institute of Standards and Technology (NIST),
     increased      Office of Management and Budget (OMB), and Office of Personnel
                    Management (OPM) guidance. The GSA Chief Information Officer
   monitoring is    (GSA CIO) has also implemented a process to review system certification
 needed to secure   and accreditation documentation for consistency with Agency policy and
GSA’s data and IT   NIST guidance and has updated its inventory of information systems
                    covered under the IT security program to include all IT investments as
       assets.      required by FISMA. The GSA CIO also employs a vulnerability scanning
                    program to verify implementation of the Agency’s security configuration
                    policy for servers across Agency systems.




                                                                        Office of Inspector General 7
                                       Management Challenges



                                      Information Technology (continued)

                                      A closer look at required security controls for the ten systems we reviewed
                                      identified areas where additional improvements are needed with GSA’s IT
                                      Security Program. GSA’s Certification and Accreditation process for IT
                                      systems was not consistently implemented for the systems reviewed, and
                                      Plans of Action and Milestones were not always being used to effectively
                                      mitigate known security weaknesses. In addition, system contingency plans
                                      were not always developed and tested. Some system owners were not
                                      comprehensively identifying and managing technical security weaknesses for
                                      their systems and the GSA CIO’s monitoring through quarterly technical
                                      scanning did not include all potentially vulnerable system devices. Finally,
                                      background checks were not always completed for contractors before
                                      granting them access to GSA systems, a condition reported in 2003 and
                                      2004. Shortfalls in these key areas of responsibility for system owners
                                      continue to demonstrate that more consistent implementation of the IT
                                      security program provisions and increased monitoring is needed to properly
                                      secure GSA’s data and IT assets.

                                      In our September 21, 2005 report, we recommended that the GSA CIO take
                                      action to:

                                      • Increase oversight of IT security policy and procedure implementation
                                        related to certification and accreditation.

                                      • Develop procedures to ensure completion and maintenance of system
                                        contingency plans and clarify responsibilities for comprehensive plan
                                        testing.

                                      • Ensure that technical scanning is conducted for all potentially vulnerable
                                        system devices.

                                      • Promote the use of compensating controls that minimize risks to systems
                                        or data if contractors are granted access prior to completion of required
                                        background checks.

                                      The GSA CIO concurred with the findings and recommendations in the
                                      report.

                                      Comprehensive Human Resources Integrated System
                                      The Comprehensive Human Resources Integrated System (CHRIS) is GSA’s
                                      Web-based Human Resources (HR) system. It is based on a commercial-
                                      off-the-shelf product and customized to support a range of HR and reporting
                                      functions intended to meet the needs of GSA and its customers. CHRIS
                                      was deployed in August 2000, providing HR systems support to GSA
                                      employees and approximately 8,600 external customers. Today, CHRIS
                                      continues to provide HR systems support covering approximately



8 Semiannual Report to the Congress
                        Management Challenges



                       Information Technology (continued)

                       25,000 employees at GSA and several other Federal agencies, and
                       Presidential boards and commissions.

                       We found that, although the original intent for CHRIS was to provide a
                       comprehensive, integrated HR system, GSA’s strategic efforts with the
                       system have been impeded by user reluctance to use the system and the
                       availability of duplicative system functionality provided by other GSA
    GSA is not         systems. Since CHRIS was introduced, a post-implementation review to
                       fully assess how well it is meeting user requirements has not been
  recovering HR        completed. Further, due to OPM efforts to consolidate HR systems across
  system costs.        the government, GSA has faced challenges in marketing CHRIS to new
                       customers. As a result of an insufficient customer base, CHRIS is not
                       recovering costs or generating the level of revenue originally expected.
                       System life cycle costs have increased from an initial estimate of $34 million
                       to an estimated $54 million without a projected quantifiable recovery of
                       investment. With ongoing decisions regarding OPM’s selection of HR Line
                       of Business systems, GSA must determine if CHRIS can meet organizational
                       and user needs and be financially beneficial to GSA.

                       During our review, we also identified specific technical control vulnerabilities
                       for the CHRIS Oracle database that, if exploited, could compromise the
                       confidentiality, integrity, and availability of the system. On July 20, 2005, we
                       issued a restricted letter report that provided detailed information for the
 System security       purpose of ensuring corrective action. In addition, several areas of system
vulnerabilities need   security risk that could lead to system vulnerabilities or unnecessary risk
                       were identified through our annual review as part of our responsibilities
  to be corrected.     under FISMA. Key security components for CHRIS had not been fully
                       addressed including a final certification and accreditation of system controls
                       and completion of required security documents. Background checks for
                       contractors with access to CHRIS are also needed.

                       To improve managerial, operational, and technical controls for this important
                       system we recommended that the GSA Chief People Officer conduct a post-
                       implementation review in accordance with the applicable OMB and GSA
                       guidance to evaluate benefits and costs for CHRIS and address
                       organizational and user needs. In addition, an alternatives analysis should
                       be performed to fully consider the costs and benefits for the options of:
                       1) keeping the system and expanding the customer base to offset costs,
                       2) offering CHRIS as a service provider, or 3) selling the system. We also
                       recommended that adequate security controls, such as completing the
                       system certification and accreditation process; updating required system
                       security documentation; completing background checks for contractors; and
                       assessing the Oracle database vulnerabilities, are in place to manage risks
                       with CHRIS.




                                                                            Office of Inspector General 9
                                        Management Challenges



                                       Information Technology (continued)

                                       The Chief People Officer did not agree with our recommendation to perform
                                       an alternatives analysis, stating that the decision was made to offer CHRIS,
                                       along with the Payroll Accounting Reporting (PAR) system, as one of the
                                       consolidated HR systems for use across government. A business case was
                                       submitted to OMB as part of the FY 2007 budget formulation process. The
                                       Chief People Officer agreed with our other recommendations.

                                       GSA Advantage!
                                       GSA Advantage!TM (Advantage) is an Internet catalog and ordering system
                                       accessible 24 hours a day, seven days a week, that allows over
                                       400,000 registered Federal Government customers worldwide to access
                                       over nine million products and services from more than 14,000 GSA and
                                       Department of Veterans Affairs Schedule vendor contracts and from GSA
     Sales through                     warehouses. This system offers electronic acquisition support by replacing
                                       direct contact with multiple vendors, offline use of other FSS systems, and
    Advantage are a                    the need for users to maintain paper copies of GSA schedule documents
    fraction of what                   and catalogs. Advantage enables electronic “Government to Government”
     they could be.                    business with customers and “Government to Business” operations with
                                       contractors who supply goods and services to the Federal Government,
                                       saving customers time and money. An enhancement to Advantage provided
                                       to some agencies is virtual stores, which enable agencies to filter catalog
                                       offerings presented to their staff for a tailored online shopping experience.
                                       Through separate Web addresses for each virtual store, agencies can post
                                       their Blanket Purchase Agreements on their agency store. Advantage is
                                       intended to save customers time and money by reducing acquisition
                                       paperwork, streamlining the online purchasing process, and providing best
                                       value with electronic access to MAS products and services. Sales through
                                       Advantage have grown from less than $5 million in FY 1996 to nearly
                                       $300 million through August of 2005. However, this accounts for only a
                                       fraction of the approximate $3 billion of total product sales that could be
                                       purchased through Advantage.

                                       In our review we found specific shortfalls with the Advantage management,
                                       funding, and planning process, including the absence of a consolidated
         Shared                        group or designated individual responsible for the system. Management of
                                       Advantage is shared among four offices and decisions about funding and
      management                       changes are made by a Council comprised of the heads of ten different
    structure dilutes                  offices and eight regional offices. This structure has not ensured that
       managerial,                     necessary managerial, operational, and technical controls are in place. In
                                       addition, we observed no clear process for prioritizing system requirements.
    operational, and                   New requirements for Advantage come from a variety of sources and are
   technical controls                  collected manually. There is no clear process for organizing this data,
     for Advantage.                    making it difficult to manage the information, hindering adequate
                                       consideration of needed system changes. We also noted that some vendors
                                       complain of delayed visibility of their products when they upload their files.


10 Semiannual Report to the Congress
                       Management Challenges



                      Information Technology (continued)

                      Deficient programs and processes and file capacity contributed to these
                      problems. Finally, we noted that FSS has spent more than $1.9 million
                      developing five virtual stores as a marketing device for Advantage.
                      However, customers are not using these stores as expected and FSS needs
                      to analyze the cost and benefits to develop and maintain these customized
                      views of Advantage.

                      In our September 29, 2005 report, we recommended that FSS take the
                      necessary actions to:

                      • Establish a management structure with adequate authority and
                        responsibility.

                      • Develop specific performance measures to guide selection and
                        prioritization of new system requirements.

                      • Ensure processes are in place to minimize delays of vendor product data
                        uploads.

                      • Analyze virtual stores to ensure the benefits of these investments merit
                        the development and maintenance costs.

                      The Acting Commissioner generally concurred with our report
                      recommendations.

                      Aging Federal Buildings
                      GSA is being challenged to provide quality space to Federal agencies in a
                      competitive environment with an aging, deteriorating inventory of buildings
                      and critical budgetary limitations. It is estimated that it would take over
                      $6 billion to bring the building inventory up to standard. GSA needs to
                      determine which buildings represent the greatest risk from a safety and
                      operational perspective, which buildings will yield the best return on
                      investment, and how to fund the highest priority projects in a timely manner.

                      PBS’ Major Repair and Alterations Program
                      The average age of the buildings in GSA’s inventory is 43 years old, and
                      every year the Public Buildings Service (PBS) performs a wide variety of
Six billion dollars   projects to repair, maintain, and modernize, ranging from repainting or
needed to repair      recarpeting office space, to replacing heating, ventilation, and air
 and modernize        conditioning systems, to total building renovations. To date, about a quarter
                      of GSA’s 1,200 buildings have undergone extensive modernization.
  GSA’s aging
    buildings.        It has been a struggle for GSA to keep up with the growing repair and
                      modernization needs of its building inventory. At the end of FY 2004, GSA
                      estimated that the cost of needed repair and alteration work had grown to



                                                                        Office of Inspector General 11
                                        Management Challenges



                                       Aging Federal Buildings (continued)

                                       over $6 billion, 50 percent higher than five years earlier. One major factor
                                       contributing to this growth is that available funding for these projects is
                                       limited. The projects are funded yearly through the Federal Buildings Fund
                                       (FBF), a revolving fund financed by rents received from other agencies.
                                       However, the fund has not generated sufficient income over the years to
                                       keep up with all of the needs of GSA’s buildings. In the past, the U.S.
                                       Government Accountability Office (GAO) has reported on GSA’s difficulty in
                                       overcoming long-standing obstacles in its repair and alteration program,
                                       such as inadequate program data, lack of a multi-year repair and alteration
                                       plan, and limited funding. In addition, we previously reported that the
                                       Agency has diverted repair and alteration funds to pay for overruns on new
                                       construction projects.

                                       The OIG performed an audit to determine if GSA has an effective strategy to
                                       repair and modernize federally-owned buildings. We assessed whether the
                                       Agency identifies total repair and alteration requirements and costs,
                                       evaluates the economic and operational implications of the requirements in
                                       each building, and sets forth a strategy to repair and modernize these
                                       buildings.

                                       We found that PBS is making progress in developing a comprehensive plan
                                       to address its long-term capital reinvestment requirements, but that more
                                       needs to be done. PBS has developed a methodology using multiple
    Methodology for
                                       information systems to identify building deficiencies and then to inventory
       forecasting                     and schedule the repair and alteration projects for its buildings. The
         building                      information developed through this methodology forms the basis of a
                                       nationwide forecast for addressing building reinvestment needs. However,
  reinvestment needs
                                       the methodology is not being implemented on a consistent basis, which may
   is not consistently                 be an obstacle to PBS effectively managing its reinvestment requirements.
        followed.                      In addition, PBS has not fully developed its strategy to repair or modernize
                                       its buildings, nor does it establish the relative benefits and priorities of all
                                       competing projects.

                                       To remedy the situation, PBS needs to take additional steps toward ensuring
                                       the effective planning for its building repair and modernization requirements.
                                       These steps include ensuring the data for its building reinvestment
                                       requirements is obtained and maintained, developing and implementing a
                                       new strategy to repair and modernize its buildings, and strengthening the
                                       prioritization methodology for the nationwide reinvestment forecast.

                                       Management Controls
                                       Multiple management controls and extensive supervisory reviews have been
                                       replaced, through streamlining efforts, by fewer and broader controls,
                                       making it essential that the remaining control processes be emphasized and
                                       consistently followed. Streamlined processes have helped GSA achieve its


12 Semiannual Report to the Congress
 Management Challenges



Management Controls (continued)

goal of serving customers more quickly and efficiently; however, the Agency
is exposed to the risk of mismanagement and abuse if program officials do
not ensure the faithful application of existing safeguards.

Audit of Pegasys Account Balance and Transaction Analysis:
Construction in Progress
During our review of the controls over the financial reporting of the
Construction in Progress (CIP) account balance, we discovered a material
classification error in GSA’s FY 2003 audited financial statements. We
issued an Alert Report to management in September 2004 so that corrective
action could be taken. Subsequently, the Independent Public Accountant
considered this issue a reportable condition in the Financial Statements Audit
for FY 2003 and FY 2004.

This period, we issued separate reports to the Office of the Chief Financial
Officer (OCFO) and PBS on the controls over the statistical sample adjusting
journal entry as recorded in the FBF. Our audit objective was to determine
whether the controls were in place to ensure that management’s assertions
related to CIP were properly reflected in the quarterly financial statements as
of March 31, 2004.

In our audit of PBS, we found that the controls over the data used in the
preparation of the statistical sample as part of the quarterly reporting process
for CIP need improvement. Specifically, we found that PBS did not ensure
that the population used in the CIP statistical sample was complete, the
sampling methodology was sufficient, and the data used in the sample was
properly treated. We also found that PBS needs to improve the
documentation of the internal controls over CIP reporting. The
Commissioner of PBS agreed with our recommendations.

Our audit of the OCFO found that action is needed to strengthen the internal
controls over the review and approval of adjusting journal entries to ensure
that the CIP adjusting journal entries submitted by PBS are based on
sufficient, relevant, and reliable data. The OCFO concurred with our
recommendations.




                                                   Office of Inspector General 13
                              Promoting and Protecting Integrity



                                       GSA is responsible for providing working space for almost one million
                                       Federal employees. The Agency also manages the transfer and disposal of
                                       excess and surplus real and personal property and operates a
                                       governmentwide service and supply system. To meet the needs of customer
                                       agencies, GSA contracts for billions of dollars worth of equipment, supplies,
                                       materials, and services each year. We conduct reviews and investigations in
                                       all these areas to ensure the integrity of the Agency’s financial statements,
                                       programs, and operations, and that the taxpayers’ interests are protected. In
                                       addition to detecting problems in these GSA programs and operations, the
                                       OIG is responsible for initiating actions to prevent fraud, waste, and abuse
                                       and to promote economy and efficiency. When systemic issues are
                                       identified during investigations, they are shared with GSA management for
                                       appropriate corrective actions.

                                       Significant Criminal Actions

                                       Former GSA Chief of Staff/OFPP Head Charged with Making False
                                       Statements, Obstructing Federal Investigation
                                       David H. Safavian, GSA’s former Chief of Staff, was arrested on
                                       September 19, 2005, on charges of making false statements and obstructing
                                       an investigation. The affidavit filed in support of the criminal complaint
                                       alleged that from May 16, 2002 until January 10, 2004, while serving as
   Former GSA Chief                    GSA’s Chief of Staff, Safavian aided a Washington, DC lobbyist in the
    of Staff charged                   lobbyist’s attempts to acquire GSA-controlled property in and around
                                       Washington, DC. In August 2002, this lobbyist allegedly took Safavian and
   with making false                   others on a golf trip to Scotland.
    statements and
   obstruction of an                   The false statement and obstruction of the investigation charges relate to
                                       Safavian’s statements to a GSA ethics officer and the GSA OIG that the
     investigation.                    lobbyist had no business with GSA prior to the August 2002 golf trip.
                                       According to the affidavit, Safavian concealed the fact that the lobbyist had
                                       business before GSA prior to the August 2002 golf trip, and that Safavian
                                       was aiding the lobbyist in his attempts to do business with GSA. (On
                                       October 5, 2005, a superceding five-count indictment was returned charging
                                       Safavian with making false statements and obstructing both a GSA and a
                                       U.S. Senate proceeding.)

                                       From November 2004 until September 2005, Safavian had served as the
                                       administrator of the Office of Federal Procurement Policy at the Office of
                                       Management and Budget.

                                       This matter is being jointly investigated by the OIG, the Federal Bureau of
                                       Investigation (FBI), the Department of the Interior OIG, and the Internal
                                       Revenue Service.




14 Semiannual Report to the Congress
                     Promoting and Protecting Integrity



                        Corruption Found in Federal Courthouse Construction Project
                        A multi-year investigation was conducted jointly by the OIG and the FBI
                        based on information that PBS employees were illegally awarding contracts
                        for various building services and supplies involving a Federal Courthouse in
                        Chicago in exchange for bribes and kickbacks. The investigation uncovered
                        a corrupt environment involving the payment of gifts, money, and illegal
                        drugs in return for the award of GSA contracts and resulted in the
Corruption found in     prosecution of 16 individuals including five GSA employees, nine
Federal Courthouse      contractors, and two employees of another Federal agency.
   construction         During this reporting period, two former GSA building managers and two
     project.           GSA contractors were sentenced in cases stemming from the investigation.
                        Both building managers pled guilty to bribery. One building manager, who
                        had been employed by GSA for over 30 years and has since retired,
                        admitted to having thousands of dollars worth of home improvements done
                        to her house by GSA contractors. She was sentenced to 30 months
                        incarceration followed by 36 months of supervised probation and ordered to
                        pay $45,000 in restitution. The other building manager, who resigned from
                        her position, pled guilty to converting government property for her own
                        personal use and was sentenced to 12 months probation and ordered to pay
                        restitution. In her plea, she admitted to accepting a snow blower from a
                        GSA contractor knowing that it was billed to and paid for by the government.

                        Also during this period, two GSA contractors were sentenced. One
                        contractor pled guilty to bribery and was sentenced to home confinement
                        with electronic monitoring for eight months followed by 60 months probation,
                        and ordered to pay $11,180 in restitution and a $4,000 fine. The other
                        contractor pled guilty to making false statements and was sentenced to three
                        years probation and ordered to pay $12,000 in restitution and a $1,200 fine.

                        Two GSA Contractors Convicted of Fraud Against the United States
                        On June 29, 2005, two co-owners of Woodcraft Manufacturing, Inc., a
                        construction company, each pled guilty to major fraud against the United
                        States. The company was awarded a subcontract to supply and install
  GSA contractor        natural cherry wood millwork in the U.S. Federal Courthouse in Montgomery,
  pleads guilty to      Alabama. The individuals devised a plan to defraud the United States by
      product           installing poplar wood millwork instead of the required natural cherry wood.
                        In the plea agreement, both admitted that, through this scheme, they
   substitution.        defrauded the United States of over $37,000. One co-owner was sentenced
                        to three years probation, six months home confinement, and fined $2,500.
                        The other co-owner was sentenced to three years probation, three months
                        home confinement, and fined $1,500. In addition, both individuals agreed
                        not to apply for any future U.S. Government contracts.

                        GSA Contractor Sentenced for Making False Statements
                        A joint investigation with the FBI into corruption in GSA construction
                        contracts disclosed that a project manager of Trataros Construction, a New


                                                                         Office of Inspector General 15
                              Promoting and Protecting Integrity



                                       York-based company, made illegal payoffs to numerous employees that were
                                       empowered to oversee a construction contract with the New York City
                                       Transit Authority. The individual was charged with theft concerning programs
                                       receiving Federal funds. He pled guilty in U.S. District Court and was
                                       sentenced to serve three years probation and ordered to pay $300,000 in
                                       restitution and a $10,000 fine.

                                       Theft of Government Property
                                       A former employee of Signal Corporation, a New Jersey-based company,
                                       pled guilty to theft of government property. He was sentenced to one year
                                       probation and ordered to pay $2,500 in restitution and a $2,500 fine. The
                                       investigation found that the former employee received $2,500 worth of
                                       electronic equipment, which was purchased using a government charge card
                                       and paid for under a GSA task order.

                                       Theft of Government Vehicle
                                       A joint investigation by the OIG and the Department of Veterans Affairs (VA)
                                       OIG revealed that an employee of an automotive service center stole a GSA
                                       vehicle, which had been leased to the VA Medical Center, after it had been
                                       left for repairs. The employee possessed the vehicle for over nine months
                                       before it was located and recovered. He pled guilty to theft of government
                                       property and was sentenced to five months in prison, three years supervised
                                       probation, and ordered to pay $4,966 in restitution.

                                       Fleet Charge Card Abuse
                                       The OIG has an ongoing proactive investigative project to identify and
                                       investigate fraud associated with the misuse of GSA-issued fleet charge
                                       cards. During this period, nine individuals were sentenced in connection
  Investigations into                  with cases arising out of the investigations.
  abuse of GSA fleet
                                       • A joint investigation by the OIG and the Defense Criminal Investigative
     cards led to                        Service revealed that an individual was using a stolen fleet card that had
   multiple charges.                     been assigned to a vehicle leased to the Army to purchase gas for his
                                         personal vehicle, as well as CB radios, windshield wiper blades, food, and
                                         beer. He pled guilty to theft of government property and was sentenced
                                         to two years probation, ordered to pay $13,130 in restitution, and fined.

                                       • An OIG investigation revealed that an individual used a stolen fleet card
                                         assigned to a vehicle utilized by the Illinois State National Guard to
                                         purchase gasoline for his personal use. He pled guilty to theft of
                                         government property and was sentenced to three years probation and
                                         ordered to pay restitution in the amount of $6,691.

                                       • A joint investigation by the OIG and the Army Criminal Investigative
                                         Command determined that a facility manager with the Army Corps of
                                         Engineers fraudulently used two fleet cards assigned to this facility to
                                         purchase gasoline for his personal vehicles. He pled guilty to


16 Semiannual Report to the Congress
                     Promoting and Protecting Integrity



                          embezzlement of government funds and was sentenced to three years
                          probation, six months home detention, and ordered to pay $4,197 in
                          restitution and a $2,000 fine.

                        • An OIG investigation revealed that a former security officer with Inter-Con
                          UPSP Services Corporation used a fleet card reported missing by the
                          corporation to purchase gas for his own personal vehicle. He pled guilty
                          to theft of government property and was sentenced to two years
                          supervised probation and ordered to pay $5,400 in restitution.

                        • A joint investigation by the OIG and the FBI revealed that a former
                          employee of an Oregon Fire Department and his girlfriend used a stolen
                          fleet card to purchase gas for their personal vehicles. He pled guilty to
                          theft of government property; she pled guilty to theft of public property.
                          They were each sentenced to 36 months probation and ordered to pay
                          $1,842 in restitution.

                        • A joint investigation by the OIG and a local Pennsylvania police
                          department showed that an airman apprentice assigned to a U.S. Naval
                          Air Station (NAS) used a stolen fleet card assigned to the NAS to
                          purchase gasoline for his personal use. He pled guilty to theft of
                          government property and was sentenced to 24 months probation and
                          ordered to pay $1,403 in restitution.

                        • A joint investigation by the OIG and a local Maryland police department
                          determined that an individual used a stolen fleet card to purchase
                          gasoline for other vehicles for cash. In a pretrial agreement, he pled
                          guilty to theft of government property and was sentenced to 24 months
                          probation and ordered to pay restitution.

                        • A joint investigation by the OIG and the U.S. Department of Treasury OIG
                          showed that a contractor used three fleet cards assigned to Treasury to
                          purchase cigarettes, food, and other miscellaneous items for his personal
                          use. He pled guilty to theft of government property and was placed in a
                          pretrial diversion program, sentenced to 40 hours community service, and
                          ordered to pay restitution.

                        Significant Civil Actions
 Accounting firm
pays $41.9 million      PriceWaterhouseCoopers Pays $41.9 Million to Settle Allegations It
    to resolve          Overcharged Federal Agencies for Travel Expenses
   government           On June 1, 2005, PriceWaterhouseCoopers (PWC) agreed to pay
                        $41.9 million to settle a qui tam complaint relating to overcharges on travel-
  allegations of        related expenses. The complaint alleged that PWC routinely failed to pass
    fraudulent          along to the government rebates it received from travel providers such as
  overcharges.          airlines, hotels, and rental car companies. Therefore, because the
                        company’s contracts with government agencies (including the relevant two


                                                                           Office of Inspector General 17
                              Promoting and Protecting Integrity



                                       contracts with GSA) generally required that only actual travel expenses
                                       could be reimbursed, the complaint alleged that PWC repeatedly submitted
                                       false claims to the government.

                                       The government’s audit and investigation substantively confirmed the
                                       relator’s major allegations. Specifically, the company had rebate agreements
                                       with travel providers and travel service providers from the early 1990s
                                       onward. These agreements often provided for back-end rebates, as
                                       opposed to up-front discounts. While up-front rebates would automatically
                                       be passed on to the company’s clients, back-end rebates were undisclosed
                                       and therefore not passed through. In addition to the rebate agreements with
                                       airlines and rental car companies, PWC had agreements in place with its
                                       travel services provider, which provided both travel agent and charge card
                                       services. In these agreements, the travel services company agreed to
                                       rebate to PWC all commissions earned from the provision of travel agent
                                       services to PWC, as well as to rebate one percent of the total amount
                                       charged by PWC personnel on their corporate charge cards. PWC failed to
                                       refund or credit the rebates to its customers.

                                       Humanscale Corporation Pays $9 Million to Settle Government Pricing
                                       Claims Under MAS Contracts
                                       On June 30, 2005, the government resolved a qui tam lawsuit brought
                                       against Humanscale Corporation, a New York-based company, for violations
   Office equipment                    of the civil False Claims Act. The settlement resolved allegations that
   company settles                     Humanscale failed to disclose current, accurate, and complete pricing
                                       information under three of its GSA Multiple Award Schedule (MAS) contracts
      charges of                       for ergonomic office equipment and furniture. The settlement also resolved
 fraudulent defective                  allegations that the company failed to comply with the price reduction clause
       pricing for                     under these same three MAS contracts. The government alleged that this
                                       conduct resulted in overcharges to Federal agencies buying under the MAS
       $9 million.                     contracts. Humanscale agreed to pay $9 million to settle these allegations.
                                       The lawsuit was filed in Federal district court in the District of Columbia.

                                       Oracle Pays $8.0 Million for Overcharges Related to Its Training
                                       Services
                                       On May 4, 2005, Oracle Corporation (Oracle) agreed to pay the government
                                       $8 million to settle a qui tam complaint relating to overcharges on its
                                       computer software training and education contracts with GSA. In his qui tam
                                       complaint, the relator, a former Oracle employee, alleged that Oracle
                                       engaged in the following improper conduct in relation to its GSA contracts:
                                       billing and collecting from the government for computer software training
                                       services in advance of providing the services, forfeiting to Oracle millions of
                                       dollars paid by the government for training services if those services were
                                       not used within a certain period of time, failing to comply with the Federal
                                       Travel Regulations in billing the government for travel and expenses
                                       associated with certain training programs, and failing to disclose accurate
                                       price/discount information for training services to its commercial customers.


18 Semiannual Report to the Congress
                  Promoting and Protecting Integrity



                      The OIG’s investigation substantially confirmed the relator’s major
                      allegations. Specifically, the company had been billing Agency customers in
                      advance for training courses and cashing in the payments on the unused
                      courses. The company had also been charging the government a
                      predetermined, higher amount for its employees’ travel expenses, rather
                      than passing along the actual expenses, as required in its GSA contract.
                      Oracle had also failed to disclose several more favorable pricing/discounts to
                      its commercial customers, as required by the contract.

                      Office Supply Companies Pay Over $14.65 Million to Settle Allegations
                      of Trade Agreements Act Violations
                      Three companies that provide office supplies to the government, including
                      OfficeMax, Incorporated (formerly known as Boise Cascade Office
Three office supply   Products), Office Depot, Incorporated, and Caddo Design and Office
                      Products, have paid the government $14.65 million collectively to settle
 companies pay a
                      allegations that they violated the Trade Agreements Act in performing their
    collective        MAS contracts. The allegations, which were brought under the qui tam
 $14.65 million to    provisions of the civil False Claims Act, provided that each of the companies
                      sold numerous office products to the government under their MAS contracts
  resolve Trade
                      that were sourced from impermissible countries of origin. Under the qui tam
 Agreements Act       provisions of the civil False Claims Act, a portion of these settlement funds
    violations.       were paid to three relators — a competitor office supply company, and two
                      individuals who served as executives at the company — for bringing the
                      allegations to the government’s attention. The lawsuit was filed in Federal
                      district court for the District of Columbia.

                      Intelligent Decisions Pays $1.61 Million to Settle Allegations It
                      Underpaid Industrial Funding Fee Under Its MAS Contract
                      On July 8, 2005, Intelligent Decisions, Incorporated, (ID) a Chantilly, Virginia-
                      based company, agreed to pay the government over $1.6 million to settle
                      allegations under the civil False Claims Act that the company underreported
                      total sales under its MAS contract for the sale of IT hardware, software, and
                      services. The government alleged that ID underpaid its related industrial
                      funding fee — an administrative fee that GSA assesses on a quarterly basis
                      directly as a percentage of total MAS sales.

                      Trans Union Pays $1.32 Million for Failure to Disclose Discounts to
                      GSA and for Overcharges on Its MAS Contract
                      On April 7, 2005, Trans Union LLC (Trans Union) agreed to pay the
                      government $1.32 million to settle a potential civil False Claims Act case
                      relating to overcharges on its credit reporting services and products. The
                      case stemmed from a voluntary disclosure by Trans Union to the Office of
                      Inspector General in July 2000. In the voluntary disclosure, Trans Union
                      notified the OIG that it had violated the price reduction and overbillings
                      provisions of a 1995 MAS contract for personal data reports and related
                      services. Through a postaward audit, the OIG determined that Trans Union
                      had failed to disclose to GSA, not only price reductions, but also certain


                                                                          Office of Inspector General 19
                              Promoting and Protecting Integrity



                                       price discounts that Trans Union should have disclosed during negotiations.
                                       In addition, the audit found that Trans Union failed to grant the government
                                       the volume discounts to which it was contractually entitled.

                                       Turner Construction Company Agrees to Forfeit Claims and Pay
     Construction                      Agencies to Resolve Allegations of Kickbacks, Overcharges
                                       On June 23, 2005, Turner Construction Company (Turner) reached an
  company forfeits                     agreement with the government to settle a potential civil False Claims Act
 $2.9 million in other                 and kickback case relating to overcharges on its construction contracts with
 agency claims and                     GSA, the Navy, the VA, and a number of other agencies. Turner agreed to
                                       pay $31,005, double the amount of commissions Turner received back from
 pays $6.6 million to                  AON Corporation, the bonding company, on its GSA contract, and also
   GSA and other                       agreed to pay GSA $6.3 million to withdraw its affirmative defense, based
 agencies to resolve                   upon the commission-splitting arrangement with AON in an ongoing GSA
                                       Board of Contract Appeals case. Turner also agreed to pay the Department
    allegations of                     of Justice (DOJ) an additional $304,340 in double damages relating to
    kickbacks and                      kickbacks on contracts with the other agencies, and also agreed to forfeit a
     overcharges.                      $2.4 million claim it had filed against the Navy in the Court of Federal
                                       Claims, as well as a $500,000 claim against the VA.

                                       Sprint Corporation Pays $337,752 to Settle Allegations It Overcharged
                                       Federal Agencies for Telecommunications Services
                                       On August 17, 2005, Sprint Corporation (Sprint) agreed to pay $337,752 to
                                       settle a qui tam complaint relating to overcharges for telecommunications
                                       services. The complaint alleged that Sprint, for the time period of December
                                       1998 to June 2001, overcharged the government with regard to
                                       Pre-Subscribed Interexchange Carrier Charges (“PICCs”). Under the
                                       contract, Sprint was allowed to only pass through to the government “actual
                                       charges” associated with the PICCs. In fact, Sprint, according to the relator,
                                       passed through to the government costs and fees for PICCs in excess of
                                       what was allowed under the contract. The recovery represents
                                       approximately double the amount of the overcharges. The matter was filed
                                       in U.S. District Court for the Central District of California.

                                       Judgment in a Civil False Claims Act Trial
                                       In a trial held in Federal District Court for the Northern District of Illinois, the
                                       president of Levin Associates Architects was found to have violated the civil
                                       False Claims Act by overcharging GSA for the work his company had done
                                       on a new water system in a leased building. The court ordered the
                                       defendant to pay treble damages (the maximum allowed under the law) and
                                       civil penalties totalling $31,317.

                                       Integrity Awareness
                                       The OIG presents Integrity Awareness Briefings nationwide to educate GSA
                                       employees on their responsibilities for the prevention of fraud and abuse and
                                       to reinforce employees’ roles in helping to ensure the integrity of Agency
                                       operations.

20 Semiannual Report to the Congress
                  Promoting and Protecting Integrity



                      This period, we presented 27 briefings attended by 397 regional employees.
                      These briefings explain the statutory mission of the OIG and the methods
                      available for reporting suspected instances of wrongdoing. In addition,
                      through case studies, the briefings make GSA employees aware of actual
                      instances of fraud in GSA and other Federal agencies and thus help to
                      prevent their recurrence. GSA employees are the first line of defense
                      against fraud, abuse, and mismanagement. They are a valuable source of
                      successful investigative information.

                      Hotline
                      The OIG Hotline provides an avenue for employees and other concerned
                      citizens to report suspected wrongdoing. Hotline posters located in
                      GSA-controlled buildings encourage employees to use the Hotline. We also
                      use our FraudNet Hotline platform to allow Internet reporting of suspected
                      wrongdoing. During this reporting period, we received 1,093 Hotline
                      contacts. Of these contacts, 186 Hotline cases were initiated. In 78 of these
                      cases, referrals were made to GSA program officials for review and action as
                      appropriate, 26 cases were referred to other Federal agencies for follow up,
                      29 were referred for OIG criminal/civil investigations or audits, and 53 did not
                      warrant further review.

                      Significant Preaward Reviews and Other Audits
                      The OIG’s preaward review program provides information to contracting
                      officers for use in negotiating contracts. The pre-decisional, advisory nature
                      of preaward reviews distinguishes them from other audits. This program
Preaward reviews—     provides vital and current information to contracting officers, enabling them
                      to significantly improve the government’s negotiating position and to realize
 significant gains    millions of dollars in savings on negotiated contracts. This period, the OIG
over prior periods.   performed preaward reviews of 46 contracts with an estimated value of
                      $6.4 billion, a 46 percent increase over the dollar amounts from any other
                      recent six-month period. The $682 million in recommended cost avoidances
                      was 73 percent higher.

                      Four of the more significant MAS contracts we reviewed had projected
  Estimated value     governmentwide sales totaling $3.8 billion. The review findings
                      recommended that over $485 million in funds be put to better use. The
    of contracts      reviews disclosed that these vendors offered prices and labor rates to GSA
    reviewed —        that were not as favorable as the prices and rates other customers receive
   $6.4 billion, up   from these vendors.

    46 percent;       The Office of Management and Budget (OMB) has long recognized the
recommended cost      increasing dollar value of GSA’s contract activities and our limited resources
                      in providing commensurate audit coverage. Through the Federal Supply
   avoidances —
                      Service (FSS) and Federal Technology Service (FTS) contract program
  $682 million, up    revenues, OMB officials have provided us additional financial support to
     73 percent.      increase our work in this area. These funds enabled us to hire additional
                      staff to support expanded contract review activities including, primarily, an


                                                                         Office of Inspector General 21
                              Promoting and Protecting Integrity



                                       increase in preaward contract reviews, as well as more contract
                                       performance reviews that test contractors’ compliance with pricing, billing,
                                       and terms of their contracts, and periodic program evaluations to assess the
                                       efficiency, economy, and effectiveness of contracting activities. With these
                                       added resources, we are planning to substantially increase the number of
                                       preaward reviews in FY 2006.

                                       During this six-month period, management decisions were made on 44 of
                                       the preaward reports issued during FY 2005. Those reports recommended
                                       that over $451 million of funds be put to better use. Management agreed
                                       with more than 90 percent of these recommended savings — an amount in
                                       excess of $410 million.

                                       FTS Regional Information Technology Solutions and
                                       Telecommunications Fees
                                       The revolving fund authority under which FTS operates requires that it fully
                                       recovers all costs (salaries, benefits, operational costs) in its estimated fees.
                                       FTS fees currently include surcharges, hourly labor rates, flat fees, or some
                                       combination thereof. FTS develops fees annually that are consistent with
                                       the IT Fund Cost and Capital Requirements Plan submitted to OMB yearly.

                                       In our audit of FTS Regional fees, we found that IT Solutions fees vary
                                       between regions, including some regions utilizing as many as ten different
                                       surcharges and others as few as two. No apparent correlation exists
                                       between the number of regional surcharges and regional revenue, number
                                       of active tasks, direct operating expense, or net operating results. The
                                       multiple surcharge fee structure results in confusion and a perception of
                                       inconsistency among customers and contractors alike. It puts the
                                       contracting officers in a position to negotiate rates, which may result in rates
                                       that are not sufficient to cover costs, provide insufficient IT funds to meet the
                                       mission needs, and are potentially inequitable among customers.
                                       Additionally, negotiation and rate differences encourage shopping regions for
                                       best price, which may further interregional “poaching” of customers and
                                       similar activities detrimental to overall FTS operations. An effective costing
                                       methodology would aid in the development of a simplified rate structure that
                                       facilitates planning, covers costs, and ensures sufficient IT funds are
                                       available to meet mission needs without burdening customer agencies with
                                       additional unwarranted fees.

                                       Regional IT management has recognized this issue and has made positive
                                       strides to address it. OMB has also recognized this issue and directed
                                       Regional IT Solutions to initiate steps to address it in their 2006 performance
                                       measures. Additionally, GSA is including a review of fees in the ongoing
                                       FTS/FSS consolidation activities.

                                       We also found that Regional Telecom currently uses a cost-based fee
                                       structure. Expenses that can be directly traced to a revenue center are


22 Semiannual Report to the Congress
Promoting and Protecting Integrity



   allocated to that center; expenses that cannot be directly traced are put into
   a regional indirect cost pool along with allocated FTS and GSA corporate
   overhead. Excess revenues initially reduce the indirect cost pool from the
   region’s Expanded Services (ES) program and programs related to special
   customers. What remains in the indirect cost pool is then cleared by a
   regional surcharge designed expressly to adjust the indirect cost pool and/or
   create positive Net Operating Reserves as directed by the GSA Chief
   Financial Officer.

   While the geographically segmented nature of Regional Telecom’s dial-tone
   business lessens confusion associated with varying rates, there are factors
   that can contribute to inequities. One example is the reduction of dial-tone
   surcharges from excess ES surcharge revenue generated from customers
   outside the serving region. This effect is increased when ES revenue is
   underestimated during planning because planned revenue is one factor in
   determining the equitable distribution of GSA and FTS overhead to the
   regions.

   In our September 29, 2005 report, we recommended that FTS: 1) develop
   an effective project costing methodology to use as a basis for a simplified
   fee structure for Regional IT Solutions, and 2) evaluate whether Regional
   Telecom ES revenue projection methodologies adequately address the
   nature of ES business to minimize variances and assess whether simplified
   fee structures may be appropriate.

   The Acting FTS Commissioner generally concurred with our
   recommendations and stated that they will revisit the recommendations and
   reevaluate the actions required for implementation once the FTS/FSS
   merger is completed.

   Financial Statement Audit and Related Reports
   The annual audit of GSA’s consolidated financial statements is currently
   being performed by an independent public accounting (IPA) firm with
   oversight and guidance from the OIG, as required by the Chief Financial
   Officer’s Act of 1990. In support of this effort, the OIG performed
   assessments of GSA’s payroll function, as well as agreed-upon procedures
   reviews of GSA’s fund balance with the U.S. Treasury Department and the
   Western Distribution Center inventory.

   Review of GSA’s Payroll Function
   The OIG reviewed GSA’s internal controls over the payroll function, which is
   performed at the National Payroll Center (NPC) located in the Heartland
   Finance Center. The NPC uses the automated Payroll Accounting and
   Reporting System to process payroll for approximately 25,000 employees at
   GSA and a number of independent agencies and Presidential commissions.
   Our review found that the internal controls over the payroll function appeared
   to be operating effectively and efficiently to meet control objectives.


                                                     Office of Inspector General 23
                              Promoting and Protecting Integrity



                                       We also performed an agreed-upon procedures review of GSA’s payroll
                                       function to assist the Office of Personnel Management (OPM) in assessing
                                       the reasonableness of retirement, health, and life insurance withholdings and
                                       contributions, as well as employee headcount data submitted by the NPC to
                                       OPM during FY 2005. We did not find any material differences or
                                       exceptions that were unsupported, unsubstantiated, or that represented an
                                       error.

                                       Agreed-Upon Procedures Reviews
                                       The OIG performed agreed-upon procedures reviews to assist the IPA in the
                                       completion of their FY 2005 Audit of GSA’s Financial Statements. For our
                                       review of GSA’s fund balance with Treasury, we reconciled appropriated
                                       funding in the general ledger to the authorized GSA appropriations for
                                       FY 2005; we provided information on the adequacy of controls over the
                                       collection, disbursement, and adjustment amounts reported to Treasury; and
                                       we tested monthly Statement of Differences reports to determine if the
                                       Agency is properly reconciling its fund balance with Treasury accounts.

                                       We also performed certain procedures to assist the IPA in the review of the
                                       Western Distribution Center inventory by observing the receiving process to
                                       determine if identified controls are being performed; verifying select shipping
                                       transactions; determining if inventory was properly maintained to ensure
                                       accurate inventory accounts; and verifying the accuracy of the physical
                                       inventory reconciliation for a selected inventory count.

                                       We provided the relevant information on the procedures we performed to the
                                       IPA on September 14, 2005 and September 28, 2005 respectively.




24 Semiannual Report to the Congress
                 Governmentwide Policy Activities



                    We regularly provide advice and assistance on governmentwide policy
                    matters to the Agency, as well as to other Federal agencies and to
                    committees of Congress. In addition, as required by the Inspector General
                    Act of 1978, we review existing and proposed legislation and regulations to
                    determine their effect on the economy and efficiency of the Agency’s
                    programs and operations and on the prevention and detection of fraud and
                    mismanagement. Because of the central management role of the Agency in
                    shaping governmentwide policies and programs, most of the legislation and
                    regulations reviewed invariably impact governmentwide issues in areas such
                    as procurement, property management, travel, and government
                    management and information technology systems.

Interagency         This period, we provided advice and assistance to the Office of Management
                    and Budget (OMB) on various procurement policy issues, particularly in the
Committees and      area of time-and-materials and labor-hours contracts.
Working Groups
                    In addition, we participated on a number of interagency committees and
                    working groups that deal with cross-cutting and governmentwide issues:

                    • The Assistant Inspector General (AIG) for Auditing represents all civilian
                      government agencies on the Cost Accounting Standards Board, an
                      independent board within OMB’s Office of Federal Procurement Policy,
                      which promulgates, amends, and revises Cost Accounting Standards
                      designed to achieve uniformity and consistency in cost accounting
                      practices by individual government contractors.

                    • The AIG for Investigations serves as the Chair of the Assistant Inspectors
                      General for Investigations Subcommittee. This subcommittee reports to
                      the President’s Council on Integrity and Efficiency (PCIE) Investigative
                      Committee. The subcommittee deals with investigative issues that affect
                      all OIG Offices of Investigations, such as statutory law enforcement, peer
                      review, and coordinated assistance to the Department of Justice.

                    • OIG audit representatives participate in the Federal Audit Executive
                      Council’s IT Security Committee to develop approaches and techniques
                      for conducting IT security audits under the Federal Information Security
                      Management Act (FISMA). Audit representatives also participate in the
                      PCIE IT Roundtable to discuss various methodologies and best practices
                      for conducting IT audits.

                    • Our TeamMate Technical Support Group participates in the TeamMate
                      Federal Users Group and the PricewaterhouseCoopers TeamMate Users
                      Group to discuss concerns and new challenges facing TeamMate users.
                      TeamMate is an automated audit workpaper management system
                      designed to make the audit process more efficient.

                    • The Special Assistant to the AIG for Auditing represents GSA on the White
                      House Commission on the National Moment of Remembrance. The


                                                                      Office of Inspector General 25
                               Governmentwide Policy Activities



                                         Commission was established to enhance the legacy of Memorial Day as a
                                         day to honor those who have sacrificed their lives for the principles of
                                         freedom and liberty. Major initiatives included listing Commission
                                         activities on Federal, state, and local government Web sites, and seeking
                                         the participation of Federal employees, retirees, and benefit recipients.

Legislation and                        During this reporting period, the OIG reviewed 125 legislative matters and
                                       23 proposed regulations and directives. The OIG specifically commented on
Regulations                            the following legislative and other items:

                                       • OMB Testimony on Status of Federal Information Security Management
                                         Act. We provided comments to OMB on its proposed testimony regarding
                                         the status and implementation of FISMA. The testimony related to OMB’s
                                         oversight of agencies’ efforts to improve IT security under the law. In the
                                         context of OMB’s discussion of FISMA’s required IG evaluations of
                                         Agency IT systems, we noted that OIG audits operations are constrained
                                         by the Government Accountability Office’s Generally Accepted
                                         Government Audit Standards (commonly known as the Yellowbook) from
                                         providing certain types of non-audit services that might compromise the
                                         organization’s independence. Although we agreed that the FISMA-
                                         mandated IG work should be closely aligned with the Agency IT security
                                         programs, we cautioned against an IG advisory role and noted that audits
                                         — with their required measure of independence — would provide the
                                         same work efforts and satisfy FISMA’s requirements. OMB’s testimony
                                         also touched on the issue of the use of different criteria by IGs in
                                         performing FISMA reviews; in this connection, we noted that the Federal
                                         Information Systems Control Audit Manual (FISCAM) is widely used by IT
                                         auditors and that IGs are currently discussing ways to standardize these
                                         IT analyses.

                                       • Policy on Subcontractor Reimbursement under Multiple Award Schedule
                                         Time & Materials Orders. We provided comments to the Federal Supply
                                         Service (FSS) and the Office of the Chief Acquisition Officer regarding
                                         payment to Multiple Award Schedule (MAS) vendors under time-and-
                                         materials (T&M) orders for work that is performed by subcontractors. We
                                         noted our concerns about the significant amount of subcontracting that
                                         occurs, and our strong view that MAS vendors should be paid only the
                                         actual amounts paid to subcontractors. In many instances, MAS vendors
                                         charge the government their own — higher — labor rates for work
                                         performed by subcontractors. We noted that the difference between the
                                         subcontractor rates and the MAS vendors’ rates can be excessive, and
                                         we noted that we do not see any justification for unduly enriching prime
                                         contractors by allowing them to charge prime rates for subcontractor
                                         effort. We also noted our underlying concern that hourly rate pricing for
                                         MAS services is vulnerable to overpricing to begin with because of the
                                         difficulty in determining commercial market acceptance of hourly rates; our
                                         experience — gleaned through audits — has been that commercial



26 Semiannual Report to the Congress
            Governmentwide Policy Activities



                 customers typically buy on a firm-fixed price basis. We believe that
                 allowing reimbursement for subcontractor work at the prime MAS vendor’s
                 rate will exacerbate overpricing concerns as to MAS services orders.

               • Policy on Other Direct Costs Under Multiple Award Schedule Task Orders.
                 We provided multiple sets of comments to both FSS and the Office of the
                 Chief Acquisition Officer on policy issuances regarding the award and
                 negotiation of Other Direct Costs (ODCs) under MAS service contracts.
                 Generally, our office has had concerns that MAS vendors not charge
                 ordering agencies ODCs both directly and as a component of their fully
                 loaded MAS hourly rates. We also noted our concern that vendors treat
                 the government, in terms of charging ODCs, similarly with how they treat
                 commercial customers. Also, we noted specifically that GSA might
                 consider delaying its revision of this area until Federal Acquisition
                 Regulation (FAR) Case 2003-027 “Additional Commercial Contract Types”
                 is issued. This FAR case would govern the treatment of ODCs under
                 MAS T&M task orders. In this connection, we recommended, for
                 example, that GSA’s use of the term “contract support item” — a new term
                 coined by GSA — might be confusing to contracting officers (COs) and
                 that it should be eliminated and made consistent with whatever term is
                 used by the governmentwide FAR rule noted. We also noted our
                 concerns that the documents did not provide much practical guidance on
                 how COs are to price or reimburse unanticipated ODCs and suggested
                 that COs be directed to the existing clause “Payments Under Time and
                 Materials” at FAR 52.232-7.

               • Guidance Q’s and A’s Document Regarding “Get It Right.” We provided
                 GSA with brief comments on a question and answer document directed to
                 FTS COs who handled Client Support Center (CSC) procurements
                 deemed to be possibly problematic. The coverage on which we
                 commented had to do with remediating improperly awarded orders and
                 exercising options on all orders. We noted our agreement with the
                 policy’s emphasis on remediation as opposed to perpetuating a
                 problematic order, but urged GSA to provide more coverage both on the
                 factors a CO would consider in making such a determination and on
                 modification efforts (including exceeding the Not to Exceed ceiling
                 amount) that would not be appropriate. With respect to exercising options
                 on orders, we noted that the coverage should be modified to emphasize
                 more strongly compliance with option exercise factors noted in the FAR.

Testimony      From time to time, the Office of Inspector General is called to testify before
               Congressional committees on a variety of topics concerning GSA operations
               and government contracting issues in general. During this reporting period,
               OIG officials testified as follows:

               • Deputy Inspector General Testifies Before House Committee on
                 Homeland Security, Subcommittee on Management, Integration and
                 Oversight, Regarding GSA Procurement for Border Patrol’s Remote Video


                                                                 Office of Inspector General 27
                               Governmentwide Policy Activities



                                         Surveillance (RVS) program. On June 16, 2005, Deputy IG Joel Gallay
                                         testified regarding the OIG’s review of procurements conducted by an
                                         FTS CSC for the Border Patrol’s Remote Video Surveillance program.
                                         Our office found that based on an initial award of a $1 million task order to
                                         an MAS vendor, a blanket purchase order with a ceiling value of over
                                         $250 million was then awarded to the vendor team without competition.
                                         The procurement involved numerous task orders for installation of
                                         surveillance cameras, construction of towers for microwave transmission
                                         equipment, and installation of monitoring equipment along the United
                                         States borders with Canada and Mexico. Our office reviewed this
                                         procurement as part of a larger review of FTS CSC contracting practices,
                                         and found a number of contracting deficiencies, including lack of
                                         competition, use of an inappropriate contract vehicle, inadequate contract
                                         administration and project management, provision of less expensive
                                         equipment by the contractor, and ineffective management controls.
                                         Mr. Gallay noted that, despite the critical nature of these security
                                         improvements and nearly $20 million paid to the contractor for eight
                                         installations we reviewed, as of the end of our field work in summer 2004,
                                         none of the eight sites had fully operational RVS systems. He also
                                         highlighted lessons learned from the procurement, including the need to
                                         adhere to proper procurement rules and practices, ensure adequate
                                         acquisition planning, select an appropriate contracting approach and
                                         obtain competition, ensure good communication between GSA and client
                                         agencies, and provide attentive contract administration and effective
                                         oversight.

                                       • Assistant Inspector General for Auditing Testifies Before House
                                         Government Reform Committee, Regarding GSA Reorganization. On
                                         March 16, 2005, Eugene Waszily, Assistant Inspector General for Auditing,
                                         testified regarding a proposed reorganization of GSA. He noted that both
                                         FTS and FSS have experienced explosive revenue growth in recent
                                         years, and noted that this is due in part to GSA providing customers with
                                         choice in terms of levels of acquisition support provided. Mr. Waszily
                                         presented our office’s views that a combined organization would be
                                         workable and went on to outline a number of factors to consider in
                                         assessing any GSA reorganization. He noted that a Federal agency user
                                         survey would be useful in assessing any proposed reorganization. He
                                         also noted that any reorganization should work towards a reduction in
                                         overlap and duplication, particularly of Governmentwide Acquisition
                                         Contract vehicles. He also encouraged the adoption of a common
                                         framework for business units that would allow programs to operate
                                         independently in function and to be accountable directly. In closing,
                                         Mr. Waszily cautioned against GSA associates becoming unduly
                                         customer-centric to the point of causing rushed procurements or
                                         neglecting regulatory requirements.




28 Semiannual Report to the Congress
Governmentwide Policy Activities



   • IG Counsel Testifies in Support of Audit Rights Before Senate Committee
     on Homeland Security and Governmental Affairs, Subcommittee on
     Federal Financial Management. Kathleen Tighe, Counsel to the Inspector
     General, testified on July 26, 2005, at a hearing entitled “GSA –- Is the
     Taxpayer Getting the Best Deal?” Her testimony focused on the lack of
     postaward audit rights over negotiations information under MAS contracts,
     and GSA’s decision to curtail these rights in 1997. Ms. Tighe emphasized
     the OIG’s view that defective pricing is a continuing problem and that
     defective pricing audit rights should be reinstated at GSA. Her testimony
     also noted that preaward audits are not sufficient standing alone to
     safeguard the MAS program; that postaward audits are not unduly
     burdensome; and that there is evidence in commercial practice of
     comparable audit rights. She stated that it is the very existence of the
     audit right, even if few postaward audits are actually conducted, that
     serves as a deterrent to vendors that would misrepresent pricing
     information to the government and that encourages companies to put in
     place internal compliance or housekeeping measures.

   • Assistant Inspector General for Auditing and IG Counsel Testify Before the
     Acquisition Advisory Panel Regarding Contracting for Services. Eugene
     Waszily, Assistant Inspector General for Auditing and Kathleen Tighe,
     Counsel to the Inspector General, testified on May 17, 2005, regarding
     procurements of commercial services. The Acquisition Advisory Panel
     was created by the Services Acquisition Reform Act and tasked with
     reviewing the procurement of commercial services. Mr. Waszily and
     Ms. Tighe noted procurement personnel are having difficulty adjusting to
     recent procurement regulations and new customer demands, while trying
     to operate like a business within the confines of a government
     environment that has competing priorities. Noting that services
     procurements have grown significantly in recent years, Mr. Waszily and
     Ms. Tighe’s testimony went on to set out the OIG’s concerns with services
     contracting. Their testimony noted that MAS labor rates are vulnerable to
     overpricing because MAS vendors are unwilling or unable to provide their
     commercial pricing when negotiating an MAS labor rate. In some
     instances, these vendors may have only other Federal Government or
     MAS customers. In other cases, vendors are organizationally separate
     from affiliates or other units that may have commercial customers, and are
     unwilling to share commercial pricing of those units or affiliates with GSA
     during negotiations.

     Ms. Tighe and Mr. Waszily noted the government tends to buy services on
     a time-and-materials basis, unlike the commercial sector that tends to
     purchase on a firm-fixed price basis. Comparability is hard to determine
     because the level of risk inherent in the two separate types of buys is
     different, and there is often no transparency in commercial buys on the
     specific labor rate used. The testimony also focused on the use of ODCs
     under Federal Government services procurements. ODCs are generally



                                                    Office of Inspector General 29
                               Governmentwide Policy Activities



                                       added on charges for materials that are provided in support of the main
                                       service procured. The OIG has concerns about cost duplication issues
                                       with respect to ODCs — Federal agencies may be charged for ODCs both
                                       directly and indirectly as part of the labor rate. The testimony also noted
                                       that our audit work indicates the two-fold problem that: a) MAS vendors
                                       have charged ODCs that dwarfed, in dollar terms, the core service that
                                       was the task order’s subject, and b) MAS vendors had charged Federal
                                       agencies for ODCs that they did not typically charge directly to their
                                       commercial customers. They advocated more disclosure by MAS vendors
                                       about their ODC practices.




30 Semiannual Report to the Congress
Professional Assistance Services



   The Government Accountability Office issued a revision to the independence
   standard contained in the Government Auditing Standards. This amendment
   prohibits Federal audit organizations from performing certain types of
   management consulting projects because they may impair the independence
   of the auditors when performing subsequent audit work in the same area.
   Although we have always maintained our independence when working
   closely with GSA management, we are no longer performing consulting
   assignments, and we carefully assess our services to ensure compliance
   with the new standard. As allowed under the new standard, we are
   continuing our participation on Agency improvement task forces, committees,
   and working groups in an observer or advisory capacity.

   Task Forces, Committees, and Working Groups. The OIG provides
   advice and counsel to GSA while monitoring ongoing Agency initiatives. Our
   representatives advise management at the earliest possible opportunity of
   potential problems, help ensure that appropriate management controls are
   provided when installing new or modifying existing Agency systems, and
   offer possible solutions when addressing complex financial and operational
   issues.

   Our direct participation with the Agency on task forces, committees, and
   working groups allows us to contribute our expertise and advice, while
   improving our own familiarity with the Agency’s rapidly changing systems.
   We also benefit by expanding our new initiatives within the Federal
   community. We nevertheless maintain our ability to independently audit and
   review programs. Our participation on the task forces is typically as a
   non-voting advisory member. We maintain a strict policy of excluding staff
   members who have served on developmental task forces from subsequent
   audits of the same subject areas.

   Some areas in which we have been involved this period include:

   • Single Audit Act Activities. The Single Audit Act established uniform
     audit requirements for state and local governments receiving Federal
     awards. The non-Federal entities that receive Federal awards under
     more than one Federal program are required to undergo a single audit to
     prevent duplicate audits and inefficiencies. Each Federal agency monitors
     the non-Federal entity’s use of awards provided by the Agency, and
     assesses the quality of the audits conducted relative to its program. The
     OIG monitors these activities primarily as they relate to the personal
     property disposal program.

   • The Information Technology (IT) Council. The Council monitors
     policies and programs to ensure IT consistency throughout the Agency. It
     is comprised of the Chief Information Officers of the various GSA Services
     and Staff Offices. Representatives of our office participate in meetings at
     the request of the Agency on such matters as systems controls,
     architecture, security, or new legislative requirements.


                                                    Office of Inspector General 31
                               Professional Assistance Services



                                       • Multiple Award Schedule Working Group. The Multiple Award
                                         Schedule (MAS) Working Group was established as a result of an OIG
                                         report released in August 2001 relating to MAS contracting pricing
                                         practices. The MAS Working Group is primarily comprised of members of
                                         the Federal Supply Service (FSS) and the OIG, with representation also
                                         from the Office of General Counsel and the Office of the Chief Acquisition
                                         Officer. The Working Group meets regularly and serves as a standing
                                         forum for discussion and resolution of issues or concerns having to do
                                         with MAS contracting. It has served as an effective institutionalized
                                         communications channel for both broad policy issues and discrete issues
                                         having to do with particular contracts or reviews.

                                         The Working Group has had several areas of focus, including preaward
                                         contract reviews and MAS negotiations issues. The Working Group has
                                         developed guidance to MAS COs regarding the performance and use of
                                         preaward MAS contract reviews. Further, the Working Group has
                                         reinvigorated the process by which FSS and the OIG collaboratively select
                                         and commence preaward reviews of vendors, and has built into this
                                         process specific mechanisms for COs to request reviews of particular
                                         vendors. The Working Group has also focused on issuing guidance to
                                         COs regarding negotiations objectives and discrete negotiations issues for
                                         MAS contract awards. The Working Group also provided some input to
                                         FSS in its efforts to upgrade or enhance pricing performance measures on
                                         MAS contracts.




32 Semiannual Report to the Congress
               Statistical Summary of OIG Accomplishments



                             Audit Reports Issued
                             The OIG issued 85 audit reports during this reporting period. The 85 reports
                             contained financial recommendations totaling $689,855,971 including
                             $682,286,350 in recommendations that funds be put to better use and
                             $7,569,621 in questioned costs. Due to GSA’s mission of negotiating
                             contracts for governmentwide supplies and services, most of the savings
                             from recommendations that funds be put to better use would be applicable
                             to other Federal agencies.

                             Management Decisions on Audit Reports
                             Table 1 summarizes the status of the universe of audits requiring
                             management decisions during this period, as well as the status of those
                             audits as of September 30, 2005. There were no reports more than
                             six months old awaiting management decisions as of September 30, 2005.
                             Table 1 does not include five reports issued to other agencies this period.
                             Table 1 also does not include five reports excluded from the management
                             decision process because they pertain to ongoing investigations.


                 Table 1. Management Decisions on OIG Audits
                                                                  Reports with        Total
                                                  No. of            Financial       Financial
                                                 Reports        Recommendations Recommendations

For which no management decision
had been made as of 4/1/05
  Less than six months old                         41                   31            $ 385,309,848
  Six or more months old                            1                    1                   348,158
Reports issued this period                         80                   42               689,505,971
TOTAL                                             122                   74            $1,075,163,977
For which a management decision
was made during the reporting period
  Issued prior periods                              42                  32            $ 385,658,006
  Issued current period                             40                  12               73,128,225
TOTAL                                               82                  44            $ 458,786,231
For which no management decision
had been made as of 9/30/05
  Less than six months old                          40                  30             $ 616,377,746
  Six or more months old                             0                   0                         0
TOTAL                                               40                  30             $ 616,377,746




                                                                              Office of Inspector General 33
                      Statistical Summary of OIG Accomplishments



                                       Management Decisions on Audit Reports with
                                       Financial Recommendations
                                       Tables 2 and 3 present the audits identified in Table 1 as containing financial
                                       recommendations by category (funds to be put to better use or questioned
                                       costs).




                   Table 2. Management Decisions on OIG Audits with
                   Recommendations that Funds be Put to Better Use

                                                                  No. of                       Financial
                                                                 Reports                   Recommendations

       For which no management decision had
       been made as of 4/1/05
         Less than six months old                                   28                    $ 384,902,700
         Six or more months old                                      0                                 0
       Reports issued this period                                   34                       682,286,350
       TOTAL                                                        62                    $1,067,189,050

       For which a management decision was
       made during the reporting period
       TOTAL                                                        35                   $ 451,005,386*

       For which no management decision had
       been made as of 9/30/05
         Less than six months old                                    27                   $ 616,183,664
         Six or more months old                                       0                               0
       TOTAL                                                         27                   $ 616,183,664

       *Management agreed with $410,069,386 in management decisions.




34 Semiannual Report to the Congress
          Statistical Summary of OIG Accomplishments




            Table 3. Management Decisions on OIG Audits
                       with Questioned Costs

                                                  No. of                     Questioned
                                                 Reports                       Costs

For which no management decision
had been made as of 4/1/05
  Less than six months old                           3                   $   407,148
  Six or more months old                             1                       348,158
Reports issued this period                           8                     7,219,621
TOTAL                                               12                   $ 7,974,927

For which a management decision
was made during the reporting period
TOTAL                                                9                   $13,619,800*

For which no management decision
had been made as of 9/30/05
  Less than six months old                           3                   $     194,082
  Six or more months old                             0                               0
TOTAL                                                3                   $     194,082

*Includes $5,838,955 that management decided to seek that exceeded recommended amounts.




                                                                        Office of Inspector General 35
                      Statistical Summary of OIG Accomplishments



                                       Investigative Workload
                                       The OIG opened 95 investigative cases and closed 59 cases during this
                                       period. In addition, the OIG received and evaluated 34 complaints and
                                       allegations from sources other than the Hotline that involved GSA
                                       employees and programs. Based upon our analyses of these complaints
                                       and allegations, OIG investigations were not warranted.

                                       Referrals
                                       The OIG makes criminal referrals to the Department of Justice or other
                                       authorities for prosecutive consideration and civil referrals to the Civil
                                       Division of the Department of Justice or U.S. Attorneys for litigative
                                       consideration. The OIG also makes administrative referrals to GSA officials
                                       on certain cases disclosing wrongdoing on the part of GSA employees,
                                       contractors, or private individuals doing business with the government.



                                Table 4. Summary of OIG Referrals

           Type of Referral                              Cases                               Subjects
           Criminal                                        44                                   150
           Civil                                           14                                    18
           Administrative                                  49                                    78
           TOTAL                                          107                                   246


                                       In addition, the OIG made 17 referrals to GSA officials for information
                                       purposes only.

                                       Actions on OIG Referrals
                                       Based on these and prior referrals, 35 cases (120 subjects) were accepted
                                       for criminal prosecution and 9 cases (11 subjects) were accepted for civil
                                       litigation. Criminal cases originating from OIG referrals resulted in
                                       63 indictments/informations and 28 successful prosecutions. OIG civil
                                       referrals resulted in 8 case settlements and 1 judgement. Based on OIG
                                       administrative referrals, management debarred 38 contractors/individuals,
                                       suspended 40 contractors/individuals, and took 13 personnel actions against
                                       employees.




36 Semiannual Report to the Congress
         Statistical Summary of OIG Accomplishments



                      Monetary Results
                      Table 5 presents the amounts of fines, penalties, settlements, judgments,
                      and restitutions payable to the U.S. Government as a result of criminal and
                      civil actions arising from OIG referrals.

                      In addition, the OIG had administrative recoveries of $12,364 during the
                      course of its investigations.




                Table 5. Criminal and Civil Recoveries
                                          Criminal                         Civil

Fines and Penalties                        $ 22,598                $           —

Settlements and Judgments                                              83,219,727

Restitutions                                632,006                            —

TOTAL                                      $654,604                $83,219,727




                                                                         Office of Inspector General 37
APPENDICES
                   Appendix I–Significant Audits from Prior Reports




Under the Agency audit management decision process,        credentials and physical access system comply with
the GSA Office of the Chief Financial Officer, Office of   acquisition regulations. They are scheduled for
the Controller, is responsible for tracking the            completion between November 15, 2005 and
implementation of audit recommendations after a            January 15, 2006.
management decision has been reached. That office
furnished the following status information.                Acquisition of Regional IT Support
Fourteen audits highlighted in prior reports to the
                                                           Services
                                                           Period First Reported: October 1, 2004 to March 31, 2005
Congress have not yet been fully implemented; all are
being implemented in accordance with currently             The review evaluated procurement practices for
established milestones.                                    acquiring IT support services for PBS in the National
                                                           Capital Region.       The report contained four
Rent Pricing                                               recommendations; three have been implemented.
Period First Reported: October 1, 2004 to March 31, 2005
                                                           The remaining recommendation, which involves
The review focused on determining if the current           conducting performance-based services acquisition, is
pricing methodology is implemented consistently and in     scheduled for completion on November 15, 2005.
accordance with PBS’ rent pricing policy. The report
contained four recommendations; they have not been         Emergency Procurement Action
implemented.                                               Period First Reported: October 1, 2004 to March 31, 2005
The recommendations involve including sufficient           The review centered on a task order for anthrax
documentation in regional files, including guidance for    remediation services awarded to a vendor under its
developing special case rates, billing the tenant          FSS Multiple Award Schedule contract. The report
appropriately, and populating more fields in STAR.         contained one recommendation; it has not been
They are scheduled for completion on November 15,          implemented.
2005.
                                                           The recommendation involves tasking a team of
                                                           program experts and procurement offices to create a
Building Access through Smart Cards                        template acquisition plan.     It is scheduled for
Period First Reported: October 1, 2004 to March 31, 2005
                                                           completion on February 15, 2006.
The review assessed whether PBS is effectively
implementing a smart card credential program for           Improvements Needed in
secure physical access to facilities managed by GSA.
The report contained five recommendations; one has         Management, Operational, and
been implemented.                                          Technical Controls for PBS’ STAR
The remaining recommendations involve using vision,
                                                           System
                                                           Period First Reported: October 1, 2004 to March 31, 2005
goals, and scope to reassess the smart card credential
requirements and determining funding needs;                The review assessed how well       the STAR system is
reestablishing a physical security function within the     meeting requirements and the       effectiveness of the
PBS organization; reevaluating and improving               system’s security controls. The    report contained two
management controls; and ensuring smart card               recommendations; they have not     been implemented.




                                                                                        Office of Inspector General 41
                    Appendix I–Significant Audits from Prior Reports




The recommendations involve ensuring that STAR               evaluating enhancements to FedBizOpps based on
provides necessary business line management                  vendor input, ensuring that background checks are
information and ensuring that adequate security              completed, and ensuring that memoranda of
controls are in place. They are scheduled for                agreement are in place for FedBizOpps users. The
completion on April 15, 2006.                                recommendations are scheduled for completion
                                                             between November 15, 2005 and September 15, 2006.
Review of Management Controls Over
GSA’s Centrally Billed Travel Card                           Employee Awards Program
                                                             Period First Reported: April 1, 2004 to September 30, 2004
Account
Period First Reported: October 1, 2004 to March 31, 2005     The review evaluated management controls of the
The review focused on transactions charged to the            Employee Awards Program. The report contained five
centrally billed travel charge card account. The report      recommendations; four have been implemented.
contained five recommendations; one has been
implemented.                                                 The remaining recommendation, which requires
                                                             implementation of a management tool to review the
The remaining recommendations involve establishing a         justification and nature of awards being made by
system control to limit approving officials from             approving officials, is scheduled for completion on
approving their own authorizations, establishing a           January 15, 2006.
process to terminate blank authorizations, establishing
a system control requiring travelers to justify costs not    Review of E-Authentication
designated as direct billed on vouchers, and                 Period First Reported: April 1, 2004 to September 30, 2004
establishing an alternative control and creating an
                                                             A review of FTS E-Authentication, one of the E-Gov
interface to detect unauthorized charges. They are
                                                             initiatives, identified areas where improvements are
scheduled for completion on December 15, 2005.
                                                             needed. The report contained four recommendations;
                                                             one has been implemented.
Review of the Special Order Program
Period First Reported: April 1, 2004 to September 30, 2004
                                                             The remaining recommendations involve developing a
The regional review of the Special Order Program             business model with funding methodology for FY 2006
concluded that order processing can be streamlined.          and beyond, merging components of the
The report contained five recommendations; four have         E-Authentication     initiative  into    an    agency
been implemented.                                            implementation guide, and notifying E-Gov initiatives
                                                             that results from E-Authentication pilots have not yet
The remaining recommendation involves removing               been incorporated into the technical architecture and
National Stock Numbers (NSNs) from Multiple Award            identifying risks. They are scheduled for completion
Schedule contracts. It is scheduled for completion on        between November 15, 2005 and February 15, 2006.
January 15, 2006.

Review of FedBizOpps                                         The Portfolio Restructuring Initiative
                                                             Period First Reported: October 1, 2003 to March 31, 2004
Period First Reported: April 1, 2004 to September 30, 2004
The review involved an online survey of FedBizOpps           The review evaluated PBS’ portfolio restructuring initia-
users to gather information on user satisfaction to          tive. The report contained three recommendations; two
assess the effectiveness of FedBizOpps. The report           have been implemented.
contained four recommendations; they have not been
implemented.                                                 The remaining recommendation requires considering
                                                             suggestions for direction and refinement of the
The recommendations involve developing a process to          restructuring initiative. It is scheduled for completion
solicit input from vendors on system enhancements,           on November 15, 2005.

42 Semiannual Report to the Congress
                   Appendix I–Significant Audits from Prior Reports




Review of GSA’s Process for                                The remaining recommendation, which requires
                                                           developing access to reliable data for all delivery
Establishing Lodging Per Diems                             methods, is scheduled for completion on June 15,
Period First Reported: October 1, 2003 to March 31, 2004
                                                           2006.
The review examined the process for establishing
lodging per diem rates. The report contained two           Billing and Payment Systems
recommendations; one has been implemented.                 Period First Reported: April 1, 2002 to September 30, 2002
                                                           The review examined controls over reimbursable work
The remaining recommendation involves documenting
                                                           authorizations (RWA) billings between GSA and other
the reason for any modification or dismissal of any of
                                                           Federal agencies.       The report contained two
the Advisory Board’s recommendations. It is scheduled
                                                           recommendations; one has been implemented.
for completion on November 15, 2005.
                                                           The remaining recommendation involves incorporating
Consolidation of Distribution Centers                      estimated cost data for planning workflow before and
Period First Reported: October 1, 2002 to March 31, 2003
                                                           during the RWA process. It is scheduled for
The review examined the operations of the FSS Stock        completion on November 15, 2005.
Program. The report contained two recommendations;
one has been implemented.




                                                                                        Office of Inspector General 43
                               Appendix II–Audit Report Register
                                                                                        Financial
                                                                                    Recommendations
                                                                                Funds to        Questioned
Date of        Audit                                                           Be Put to      (Unsupported)
Report         Number                     Title                                Better Use         Costs



(Note: Because some audits pertain to contract award or actions that have
not yet been completed, the financial recommendations to these reports
are not listed in this Appendix.)

PBS Internal Audits
05/09/05        A040106         Pegasys Account Balance and Transaction
                                Analysis: Construction in Progress —
                                Public Buildings Service

06/13/05        A040173         Review of Northwest/Arctic Region, Public
                                Buildings Service, Western Service Center

08/02/05        A050162         Limited Review of Educational Benefits
                                Related to Rotational Assignments in
                                Puerto Rico Antilles Consolidated School
                                System

09/26/05        A040176         Audit of PBS’s Major          Repair    and
                                Alterations Program

PBS Contract Audits
05/04/05        A050144         Preaward Review of Architect and
                                Engineering Design Services Contract:
                                BNIM Architects, Solicitation Number
                                GS06P03GZC0519

05/04/05        A050160         Preaward Review of Architect and
                                Engineering Design Services Contract:
                                Consultants to BNIM Architects, Solicitation
                                Number GS06P03GZC0519

06/02/05        A050126         Review of A/E Services Contract: Bohlin
                                Cywinski Jackson, Contract Number GS-
                                10P-03-LTC-0017

06/29/05        A040144         Preaward Audit of a Claim:      Solera
                                Construction, Inc./DCM Erectors, Inc.,
                                Joint Venture 2nd Tier Subcontractor to
                                J.A. Jones Construction Group, LLC,
                                Contract    Number    GS-02P-99-DTC-
                                0006(N)




44 Semiannual Report to the Congress
                      Appendix II–Audit Report Register
                                                                            Financial
                                                                        Recommendations
                                                                    Funds to        Questioned
Date of    Audit                                                   Be Put to      (Unsupported)
Report     Number              Title                               Better Use         Costs



06/30/05   A040207    Preaward Audit of a Claim:        Laquila
                      Construction, Inc., Subcontractor to J.A.
                      Jones Construction Group, LLC, Contract
                      Number GS-02P-99-DTC-0006(N)

07/08/05   A050138    Review of Claim: Nason and Cullen, Inc.,
                      Contract Number GS-03B-02301

07/19/05   A050202    Preaward Review of Architect and
                      Engineering         Services    Contract:
`                     Environmental Systems Design, Inc.,
                      Consultant to Skidmore, Owings, and
                      Merrill, LLP., Contract Number GS-05P-04-
                      GBC-0057

07/29/05   A050239    Preaward Review of Architect and
                      Engineering    Services    Contract:
                      DMJMH&N, Inc., Contract Number GS-
                      11P-04-MKC-0038

08/04/05   A050203    Preaward Review of Architect Engineer
                      Proposal: Skidmore, Owings and Merrill,
                      LLP., Contract Number GS-05P-04-GBC-
                      0057

09/13/05   A050145    Limited Review of Overhead Rate: Smith-
                      Miller & Hawkinson Architects, LLP,
                      Contract    Number     GS-02P-05-DTC-
`                     0020(N)

09/20/05   A050156    Preaward Review of Change Order
                      Proposal: PCL Construction Services, Inc.,
                      Contract Number GS06P02GZC0518

FSS Internal Audits
06/06/05   A040257    Review of GSA Global Supply’s Expanded
                      Direct Delivery Program

09/29/05   A040252    Audit of FSS’s Contractor Assessment
                      Initiative (CAsI)

09/29/05   A040246    Review of the GSA Advantage! System




                                                                        Office of Inspector General 45
                               Appendix II–Audit Report Register
                                                                                       Financial
                                                                                   Recommendations
                                                                               Funds to        Questioned
Date of        Audit                                                          Be Put to      (Unsupported)
Report         Number                    Title                                Better Use         Costs



FSS Contract Audits
04/06/05       A050059         Preaward Review of Multiple Award
                               Schedule Contract:       Cort Business
                               Services, Solicitation Number 3FNO-M1-
                               010001-B

04/07/05       A050006         Preaward Review of Multiple Award
                               Schedule Contract Extension: American
                               Hotel Register Company, Contract Number
                               GS-07F-0294K

04/28/05       A050129         Preaward Review of Multiple Award
                               Schedule Contract: Modtech Holdings,
                               Inc., Solicitation Number 7FCI-F8-03-0056-
                               B

05/10/05       A050112         Preaward Review of Multiple Award
                               Schedule Contract Extension: Entrust, Inc.,
                               Contract Number GS-35F-0332K

05/11/05       A020220         Review of Industrial Funding Fee                                   $56,162
                               Remittances:    Kipper Tool Company,
                               Contract Number GS-06F-0018L

05/19/05       A050128         Preaward Review of Multiple Award
                               Schedule Contract Extension: Metropolitan
                               Interpreters and Translators, Inc., Contract
                               Number GS-10F-0292K

06/07/05       A040100         Preaward Review of Multiple Award
                               Schedule Contract Extension:      W.W.
                               Grainger, Inc., Contract Number GS-06F-
                               0007J

06/10/05       A040262         Preaward Review of Multiple Award
                               Schedule Contract Extension:  Digital
                               Systems Group, Incorporated, Contract
                               Number GS-35F-0760J

06/14/05       A050096         Preaward Review of Multiple Award
                               Schedule Contract Extension: Northwest
                               Woolen Mills, Division of Hyman Brickle &
                               Son, Contract Number GS-07F-0368K



46 Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                         Financial
                                                                     Recommendations
                                                                 Funds to        Questioned
Date of    Audit                                                Be Put to      (Unsupported)
Report     Number             Title                             Better Use         Costs



06/15/05   A050116   Preaward Review of Multiple Award
                     Schedule Contract Extension: Booz Allen
                     Hamilton, Inc.; Contract Number GS-35F-
                     0306J

06/17/05   A050100   Preaward Review of Multiple Award
                     Schedule Contract Extension: Technical
                     and Management Services Corporation,
                     Contract Number GS-00F-0020L

06/24/05   A050077   Preaward Review of Multiple Award
                     Schedule Contract Extension: DPRA, Inc.,
                     Contract Number GS-00F-0030L

06/24/05   A050077   Preaward Audit of Cost or Pricing Data:
                     DPRA, Inc., Contract Number GS-00F-
                     0030L

06/30/05   A050113   Preaward Review of Multiple Award
                     Schedule Contract Extension:    TEAC
                     Aerospace Technologies, Inc., Contract
                     Number GS-24F-0043K

07/07/05   A050048   Preaward Review of Multiple Award
                     Schedule Contract Extension:  Trane,
                     Division of American Standard, Inc.,
                     Contract Number GS-07F-0248K

07/07/05   A050076   Preaward Review of Multiple Award
                     Schedule Contract Extension: Siemens
                     Building Technologies, Inc., Contract
                     Number GS-07F-8728D

07/08/05   A050007   Preaward Review of Multiple Award
                     Schedule Contract Extension: Network
                     Equipment Technologies Federal, Inc.,
                     Contract Number GS-35F-0205K

07/12/05   A050139   Preaward Review of Multiple Award
                     Schedule Contract Extension: SYColeman
                     Corporation, Contract Number GS-10F-
                     0250K




                                                                     Office of Inspector General 47
                               Appendix II–Audit Report Register
                                                                                     Financial
                                                                                 Recommendations
                                                                             Funds to        Questioned
Date of        Audit                                                        Be Put to      (Unsupported)
Report         Number                   Title                               Better Use         Costs



07/13/05       A030227         Review of Multiple       Award Schedule                       $1,731,776
                               Contract:     Softview   Washington DC
                               Incorporated, Contract   Number GS-14F-
                               8804B for the Period     April 1, 1998 to
                               November 1, 2001

07/13/05       A050161         Preaward Review of Multiple Award
                               Schedule Contract Extension: Advanced
                               Programming Concepts, Inc., Contract
                               Number GS-35F-0407K

07/14/05       A040022         Review of Multiple Award Schedule                              $339,793
                               Contract Number GS-29F-0001N for the
                               Interim Period October 10, 2002 to
                               December 31, 2003: Humanscale

07/14/05       A030257         Review of Multiple Award Schedule                             $1,308,543
                               Contract Number GS-14F-0029M for the
                               Interim Period March 14, 2002 to July 27,
                               2003: Humanscale Corporation

07/15/05       A050170         Preaward Review of Multiple Award
                               Schedule      Contract     Extension:
                               Gaithersburg   Equipment    Company,
                               Contract Number GS-30F-0010K

07/22/05       A050086         Preaward Review of Multiple Award
                               Schedule Contract: Federal Management
                               Systems, Inc., Contract Number GS-10F-
                               0173K

07/25/05       A020213         Limited Scope Postaward Audit of Multiple                     $1,400,866
                               Award Schedule Contract:       Intelligent
                               Decisions, Inc., Contract Number GS-35F-
                               4153D

07/27/05       A050084         Preaward Review of Multiple Award
                               Schedule Contract: Anteon Corporation,
                               Contract Number GS-10F-0154K

08/02/05       A050093         Preaward Review of Multiple Award
                               Schedule Contract Extension: H J Ford
                               Associates, Inc., Contract Number GS-23F-
                               0206K



48 Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                             Financial
                                                                         Recommendations
                                                                     Funds to        Questioned
Date of    Audit                                                    Be Put to      (Unsupported)
Report     Number              Title                                Better Use         Costs



08/05/05   A040225   Review of Multiple Award Schedule                                     $18,544
                     Contract Number GS-24F-1243C for the
                     Interim Period January 1, 2003 Through
                     June 30, 2004: Ortho-Clinical Diagnostics

08/16/05   A050101   Preaward Review of Multiple Award
                     Schedule Contract Extension: Galaxy
                     Scientific Corporation, Contract Number
                     GS-23F-0243K

09/07/05   A050125   Preaward Review of Multiple Award
                     Schedule Contract Extension: Steelcase,
                     Incorporated, Contract Number GS-28F-
                     8021H

09/09/05   A050206   Preaward Review of Multiple Award
                     Schedule Contract Extension: Club Car,
                     Inc., Contract Number GS-07F-8745D

09/09/05   A050237   Preaward Audit of Cost or Pricing Data:
                     Northrop Grumman Mission Systems
                     Corporation, Solicitation Number 2FYA-
                     WA-030003-B

09/12/05   A050175   Preaward Review of Multiple Award
                     Schedule Contract Extension: Kleinfelder,
                     Inc., Contract Number GS-10F-0029L

09/12/05   A050151   Preaward Review of Multiple Award
                     Schedule Contract Extension: Global
                     Computer Enterprises, Inc., Contract
                     Number GS-35F-0426K

09/13/05   A050095   Preaward Review of Multiple Award
                     Schedule Contract Extension: Earthtech
                     Incorporated, Division of Tyco International
                     LTD, Contract Number GS-10F-0209K

09/13/05   A050073   Preaward Review of Multiple Award
                     Schedule Contract Extension: Computer
                     Sciences Corporation, Contract Number
                     GS-23F-0092K




                                                                         Office of Inspector General 49
                               Appendix II–Audit Report Register
                                                                                     Financial
                                                                                 Recommendations
                                                                             Funds to        Questioned
Date of        Audit                                                        Be Put to      (Unsupported)
Report         Number                   Title                               Better Use         Costs



09/13/05       A050234         Preaward Review of Multiple Award
                               Schedule Contract Extension: Independent
                               Metal Strap Company, Inc., Contract
                               Number GS-15F-0084K

09/15/05       A050208         Preaward Review of Multiple Award
                               Schedule Contract Extension:   Onan
                               Corporation, Contract Number GS-07F-
                               9004D

09/16/05       A050232         Preaward Review of Multiple Award
                               Schedule Contract Extension: Acme Auto
                               Leasing, LLC, Contract Number GS-30F-
                               0005L

09/19/05       A040222         Postaward Review of Multiple Award                              $119,376
                               Schedule Contract Number GS-07F-9477G
                               for the Period February 1, 1999 to January
                               31, 2004: New Hermes, Incorporated

09/19/05       A040164         Preaward Review of Multiple Award
                               Schedule Contract: Oracle Corporation,
                               Solicitation Number FCIS-JB-980001B

FTS Internal Audits
05/18/05       A050009         Review of Federal Technology Service’s
                               Client Support Center Controls and Testing
                               of Controls, Great Lakes Region

05/18/05       A050009         Review of Federal Technology Service’s
                               Client Support Center Controls and Testing
                               of Controls, New England Region

05/18/05       A050009         Review of Federal Technology Service’s
                               Client Support Center Controls and Testing
                               of Controls, Northeast and Caribbean
                               Region

05/18/05       A050009         Review of Federal Technology Service’s
                               Client Support Center Controls and Testing
                               of Controls, Mid-Atlantic Region




50 Semiannual Report to the Congress
                      Appendix II–Audit Report Register
                                                                            Financial
                                                                        Recommendations
                                                                    Funds to        Questioned
Date of    Audit                                                   Be Put to      (Unsupported)
Report     Number              Title                               Better Use         Costs



05/18/05   A050009    Review of Federal Technology Service’s
                      Client Support Center Controls and Testing
                      of Controls, Heartland Region

05/18/05   A050009    Review of Federal Technology Service’s
                      Client Support Center Controls and Testing
                      of Controls, National Capital Region

05/18/05   A050009    Review of Federal Technology Service’s
                      Client Support Center Controls and Testing
                      of Controls, Rocky Mountain Region

05/18/05   A050009    Review of Federal Technology Service’s
                      Client Support Center Controls and Testing
                      of Controls, Southeast Sunbelt Region

05/18/05   A050009    Review of Federal Technology Service’s
                      Client Support Center Controls and Testing
                      of Controls, Pacific Rim Region

05/18/05   A050009    Review of Federal Technology Service’s
                      Client Support Center Controls and Testing
                      of Controls, European Client Support
                      Center

05/18/05   A050009    Review of Federal Technology Service’s
                      Client Support Center Controls and Testing
                      of Controls, Greater Southwest Region

05/18/05   A050009    Review of Federal Technology Service’s
                      Client Support Center Controls and Testing
                      of Controls, Northwest/Arctic Region

09/29/05   A040132    Audit of FTS Regional Telecommunications
                      and Regional Information Technology
                      Solutions Fees

FTS Contract Audits
04/15/05   A040220    Postaward Review of Presubscribed                               $2,244,561
                      Interexchange Carrier Charges: AT&T
                      Communications, Inc., Contract Number
                      GS00T99NSC0003




                                                                        Office of Inspector General 51
                               Appendix II–Audit Report Register
                                                                                      Financial
                                                                                  Recommendations
                                                                              Funds to        Questioned
Date of        Audit                                                         Be Put to      (Unsupported)
Report         Number                    Title                               Better Use         Costs



08/15/05        A050157         Review of Termination Settlement
                                Proposal: CompuCom Federal Systems,
                                Inc., Contract Number GS00K97AFD2226

Other Internal Audits
05/03/05        A040109         Audit   of     the   General   Services
                                Administration’s Fiscal Years 2004 and
                                2003 Financial Statements

05/09/05        A040106         Pegasys Account Balance and Transaction
                                Analysis: Construction in Progress —
                                Office of the Chief Financial Officer

07/20/05        A040142         Security   Vulnerabilities with  the
                                Comprehensive     Human    Resources
                                Integrated System (CHRIS) Oracle
                                Database

08/16/05        A050124         Review of Payroll Internal Controls - FY
                                2005

09/21/05        A050174         FY 2005 Office of Inspector General
                                FISMA Review of GSA’s Information
                                Technology Security Program

09/30/05        A040142         Strategic    Challenges   for  GSA’s
                                Comprehensive      Human    Resources
                                Integrated System (CHRIS)

Non-GSA Internal Audits
09/07/05        A050209         Review of the Administrative Procedures of
                                the United States Arctic Research
                                Commission

09/14/05        A050192         Report    on Applying Agreed-Upon
                                Procedures Re: FY 2005 Fund Balance
                                with Treasury

09/15/05        A050124         Report   on Applying        Agreed-Upon
                                Procedures Re: Payroll




52 Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                      Financial
                                                                  Recommendations
                                                              Funds to        Questioned
Date of    Audit                                             Be Put to      (Unsupported)
Report     Number            Title                           Better Use         Costs




09/28/05   A050192   Report     on Applying Agreed-Upon
                     Procedures Re: FY 2005 Western
                     Distribution Center Inventory Testing

Non-GSA Contract Audits
04/13/05   A010097   Department of Justice Settlement with                        $350,000
                     Ashland Chemical Company, Drew
                     Industrial Division (Drew)




                                                                  Office of Inspector General 53
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending

Pursuant to Section 810, Prompt Resolution of Audit         where final actions remain open 12 months after the
Recommendations, of the National Defense                    report issuance date. The GSA Office of the Chief
Authorization Act, (Public Law 104-106), 5 U.S.C. App.      Financial Officer, Office of the Controller, furnished the
3, § 5 note, this appendix identifies those audit reports   following information.


Audits with Management Decisions Made after February 10, 1996 for Which No Final Action Has Been Completed



Date of        Audit
Report         Number                                           Title


Contract Audits
03/21/97        A70632          Preaward Audit of Change Order Proposal: Expert Electric, Inc., Contract Number
                                GS-02P-94-CUC-0033(N)

06/27/97        A71811          Audit of Claim for Increased Costs, Miscellaneous Subcontractors to: Morse Diesel
                                International, Inc., Contract Number GS06P94GYC0037

07/11/97        A71803          Audit of Claim for Increased Costs: Nicholson Construction Company, Contract
                                Number GS06P94GYC0037

07/22/97        A71804          Audit of Claim for Increased Costs: Rodio/ICOS St. Louis Joint Venture,
                                Subcontractor to Morse Diesel International, Inc., Contract Number
                                GS06P94GYC0037

07/31/97        A71820          Audit of Claim for Increased Costs: Morse Diesel International, Inc., Contract
                                Number GS06P94GYC0037

08/05/97        A73617          Refund From The Committee For Purchase From People Who Are Blind Or
                                Severely Disabled, Agreement Number GS-02F-61511

11/26/97        A22536          Postaward Audit of Multiple Award Schedule Contract:            Ingres Corporation,
                                Contract Number GS00K89AGS5589

02/05/98        A80609          Preaward Audit of a Delay Claim: The Woodworks Architectural Millwork, Inc.,
                                Subcontractor to Beacon/Pro Con Joint Venture, Contract Number GS-02P-94-
                                CUC-0070(N)

05/27/98        A42146          Postaward Audit of Multiple Award Schedule Contract: Haworth, Incorporated,
                                Contract Number GS-00F-07010

06/17/98        A82441          Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc.,
                                Contract Number GS-09P-95-KTC-0010

09/04/98        A990302         Postaward Audit of Multiple Award Schedule Contract: Westinghouse Furniture
                                Systems, Contract Number GS-00F-76574

10/13/98        A80636          Preaward Audit of a Claim: Structural Preservation Systems, Inc., Contract
                                Number GS-02P-96-DTC-0033



54 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                   Title


02/05/99   A995113   Preaward Audit of Supplemental Architect and Engineering Services Contract: Van
                     Deusen & Associates, Solicitation Number GS-02P-98-PLD-0029(N)

03/24/99   A995128   Preaward Audit of Cost or Pricing Data: Sachs Electric Company, Subcontractor to
                     Morse Diesel International, Inc., Contract Number GS06P95GZC0501

06/08/99   A995192   Limited Postaward Audit of Multiple Award Schedule Contract for the Period April
                     1, 1997 Through February 28, 1999: Danka Office Imaging Company, Contract
                     Number GS-26F-1018B

06/24/99   A995231   Audit of Small Business Subcontracting Plan: Rael Automatic Sprinkler Company,
                     GS-02P-95-DTC-0041(N)

07/07/99   A995249   Audit of Small Business Subcontracting Plan: L. Martone and Sons, Inc., Contract
                     Number GS-02P-95-DTC-0041(N)

10/13/99   A995262   Preaward Audit of a Claim: Metropolitan Steel Industries, Inc., Subcontractor to
                     Turner Construction Company, Contract GS-02P-95-DTC-0014(N)

10/26/99   A995278   Preaward Audit of a Claim: Midlantic Erectors, Inc., Subcontractor to Metropolitan
                     Steel Industries, Inc., Contract Number GS-02P-95-DTC-0014(N)

11/04/99   A995272   Preaward Audit of a Claim: Metropolitan Steel Industries, Inc., Subcontractor to
                     Turner Construction Company, Contract Number GS-02P-95-DTC-0014(N)

11/10/99   A995271   Preaward Audit of Architect and Engineering Services Contract: HLW International
                     LLP, Contract Number GS-02P-93-CUC-0062

03/29/00   A81830    Postaward Audit of Standardization and Control of Industrial-Quality Tools
                     Contract: Wright Tool Company, Contract Number GS-00F-14609 for the Period
                     March 8, 1991 Through February 29, 1996

03/29/00   A995122   Postaward Audit of Standardization and Control of Industrial-Quality Tools
                     Contract: Wright Tool Company, Contract Number GS-00F-14609 for the Interim
                     Period March 1, 1996 Through April 30, 1998

04/25/00   A000975   Preaward Audit of Multiple Award Schedule Contract: Day Runner, Incorporated,
                     Contract Number GS-14F-0193D

06/01/00   A000971   Audit of Claims for Increased Costs: Midwest Curtainwalls, Inc., The Federal
                     Triangle Project

07/19/00   A000940   Preaward Audit of a Claim: Coken Company, Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014




                                                                            Office of Inspector General 55
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                         Title


08/24/00        A000941         Preaward Audit of a Claim: Centrifugal/Mechanical Associates, Inc., Subcontractor
                                to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

10/17/00        A001024         Preaward Audit of a Claim: Canron Fabrication Corp., Second-Tier Subcontractor
                                to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

10/30/00        A000942         Preaward Audit of a Claim: Centrifugal/Mechanical Associates, Inc., Subcontractor
                                to Turner Construction Company, Contract Number GS-02P-95-DTC-0014

01/10/01        A001021         Postaward Audit of Multiple Award Schedule Contract: Merant, Inc. for the Interim
                                Period March 26, 1999 Through September 30, 2000, Contract Number GS-35F-
                                0322J

01/29/01        A000909         Preaward Audit of a Claim: Turner Construction Company, Contract Number GS-
                                02P-95-DTC-0014

02/08/01        A010089         Audit of a Claim for Increased Costs: Palafox Street Associates, L.P., Federal
                                Courthouse, Pensacola, FL, Lease Number GS-04B-35055

03/20/01        A001119         Audit of Forward Pricing Rates: J.A. Jones-GMO, LLC, Contract Number GS-02P-
                                99-DTC-0006 & GS-02P-98-DTC-0088

03/29/01        A010169         Preaward Audit of Cost Plus Fixed Fee IDIQ Proposal: RS Information Systems,
                                Inc., Solicitation Number GSC-TFMGD-00-3006

04/30/01        A010127         Audit of Billings under Contract Number GS06P99GZC0315: DKW Construction,
                                Inc.

05/11/01        A010128         Preaward Audit of a Change Order Proposal: D.A.G. Floors, Inc., Subcontractor to
                                J. Kokolakis Contracting, Inc., Contract Number GS-02P-98-DTC-0056N

05/23/01        A010160         Preaward Audit of Cost or Pricing Data: John Milner Associates, Inc., Solicitation
                                Number 2PCB-CM-010174

05/31/01        A010118         Preaward Audit of a Claim for Increased Costs: Amelco Construction, Roybal
                                Federal Building & Courthouse, Los Angeles, California, Contract Number GS-09P-
                                98-KTC-0020

07/31/01        A001055         Preaward Audit of a Claim: Heritage Air Systems, Inc., Subcontractor to Turner
                                Construction Company, Contract Number GS-02P-95-DTC-0014

08/14/01        A010222         Preaward Audit of Architect and Engineering Proposal: Perkins and Will, Inc.,
                                Solicitation Number GS-09P-00-KTC-0088

10/18/01        A63630          Postaward Audit of Multiple Award Schedule Contract: The Presidio Corporation,
                                Contract Number GS00K-95-AGS-6170, Contract Period April 1, 1995 through
                                March 31, 1996


56 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                   Title


10/31/01   A010265   Preaward Audit of Architect and Engineering Services Contract; HNTB District of
                     Columbia Architecture, P.C., Solicitation Number GS-11P-00-MQC-0041

12/18/01   A001123   Postaward Audit of Multiple Award Schedule Contract: Rose Talbert Paint
                     Company, Contract Number GS-10F-48584, for the Period May 9, 1988 through
                     April 30, 1991

01/11/02   A010281   Preaward Audit of a Claim for Increased Costs: Lawson Mechanical Contractors,
                     Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

02/20/02   A010138   Preaward Audit of a Claim: Heritage Air Systems, Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

04/03/02   A010263   Preaward Audit of a Claim: Island ADC, Inc., Subcontractor to Turner Construction
                     Company, Contract Number GS-02P-95-DTC-0014

04/11/02   A60648    Postaward Audit of Multiple Award Schedule Contract: Gaylord Bros., Contract
                     Numbers GS-00F-3918A & GS-00F-3919A

04/18/02   A010248   Preaward Audit of a Claim: LBL Skysystems, Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

04/26/02   A010262   Preaward Audit of a Claim: Coken Company, Inc., Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

04/30/02   A020101   Preaward Audit of a Claim, Additional Change Items: Turner Construction
                     Company, Contract Number GS-02P-95-DTC-0014

05/16/02   A020115   Limited Scope Audit of a Termination Claim: Patriot Group Contractors, Inc.,
                     Contract Number GS-11P-99-MAC-0006

05/17/02   A020125   Audit of Acceleration Costs: J. Kokolakis Contracting, Inc., Contract Number GS-
                     02P-98-DTC-0056N

05/17/02   A020134   Audit of Delay Costs: J. Kokolakis Contracting, Inc., Contract Number GS-02P-98-
                     DTC-0056N

05/29/02   A020109   Preaward Audit of a Claim: Schindler Elevator Corporation, Subcontractor to Turner
                     Construction Company, Contract Number GS-02P-95-DTC-0014

05/29/02   A020124   Preaward Audit of a Claim for Increased Costs: Res-Com Insulation, Inc.,
                     Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

06/06/02   A020132   Audit of Claim for Increased Costs: Dick Corporation, Contract Number GS-05P-
                     97-GBC-0011


                                                                            Office of Inspector General 57
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                          Title


06/06/02        A020141         Audit of Claim for Increased Costs: The Albert M. Higley Co., Subcontractor to Dick
                                Corporation, Contract Number GS-05P-97-GBC-0011

06/06/02        A020142         Audit of Claim for Increased Costs: Mohawk Re-Bar Services, Inc., Subcontractor
                                to Dick Corporation, Contract Number GS-05P-97-GBC-0011

06/12/02        A020097         Preaward Audit of a Claim for Increased Costs: Artisans G & H Fixtures, Inc.,
                                Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

06/27/02        A010239         Preaward Audit of a Claim: Turner Construction Company, Contract Number GS-
                                02P-95-DTC-0014

07/16/02        A020191         Preaward Audit of Supplemental Architect and Engineering Contract: McMullan &
                                Associates, Inc., Solicitation Number GS-11P-01-YTD-0319

07/30/02        A020086         Preaward Audit of a Claim for Increased Costs: Raymond Interior Systems North,
                                Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

08/07/02        A020173         Preaward Audit of a CQM Proposal: CCJN & Company, Architects & Planners,
                                P.C., Requisition/Procurement Request Number 2PMC-U-02-CQM

09/04/02        A020180         Preaward Audit of Architect and Engineering Services Contract: Adtek Engineering,
                                Inc., Solicitation Number GS-11P-01-YTD-0319

09/24/02        A020196         Preaward Audit of Architect and Engineering Services Contract: BEI Structural
                                Engineers, Inc., Solicitation Number GS-11P-01-YTD-0319

09/26/02        A020201         Preaward Audit of a Claim: Almar Plumbing and Heating Corp., Subcontractor to
                                Turner Construction Company, Contract Number GS-02P-95-DTC-0014

10/02/02        A020178         Preaward Audit of Multiple Award Schedule Contract Modification: Motorola, Inc.,
                                GSA Contract Number GS-35F-0004L

11/14/02        A020223         Preaward Audit of a Claim: Fine Painting Co., Inc., Subcontractor to Turner
                                Construction Company, Contract Number GS-02P-95-DTC-0014

11/20/02        A010279         Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc.,
                                U.S. Courthouse & Federal Building, Sacramento, California, Contract Number
                                GS-09P-95-KTC-0032

11/22/02        A020224         Preaward Audit of a Claim for Increased Costs: Commonwealth Electric Company,
                                Subcontractor to Swinerton Builders, Evo A. Deconcini U.S. Courthouse & Federal
                                Building, Tucson, Arizona, Contract Number GS-09P-97-KTC-0008




58 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                   Title


12/23/02   A020176   Preaward Audit of a Claim for Increased Costs: Vetro, Inc., Contract Number GS-
                     09P-97-KTC-0008

01/03/03   A020242   Preaward Audit of Cost and Pricing Data: Stronghold Engineering, Inc., Solicitation
                     Number GS-09P-02-KTC-0069

01/07/03   A020192   Preaward Audit of a Claim for Increased Costs: Swinerton Builders, Evo A.
                     Deconcini U.S. Courthouse & Federal Building, Tucson, Arizona, Contract Number
                     GS-09P-97-KTC-0008

01/22/03   A020233   Preaward Audit of a Claim for Increased Costs: Sun Mechanical Contracting, Inc.,
                     Subcontractor to Swinerton Builders, Evo A. Deconcini U.S. Courthouse & Federal
                     Building, Tucson, Arizona, Contract Number GS-09P-97-KTC-0008

01/30/03   A020248   Audit of Claim for Increased Costs: Doan/Lake Erie LLC, Contract Number GS-
                     05P-99-GBC-0012

02/07/03   A020238   Preaward Audit of a Claim for Increased Costs: Standard Drywall, Inc.,
                     Subcontractor to Swinerton Builders, Evo A. Deconcini U.S. Courthouse & Federal
                     Building, Tucson, Arizona, Contract Number GS-09P-97-KTC-0008

02/12/03   A030081   Preaward Audit of a Claim for Increased Costs: Hardrock Concrete Placement
                     Company, Inc., Subcontractor to Swinerton Builders, Evo A. Deconcini U.S.
                     Courthouse & Federal Building, Tucson, Arizona, Contract Number GS-09P-97-
                     KTC-0008

02/20/03   A020217   Preaward Audit of Sole Source Contract: NEEKO Construction, Inc., Solicitation
                     Number GS-11P-02-ZGC-0218 “NEG” 8(A)

03/14/03   A020197   Preaward Audit of a Claim: Rael Automatic Sprinkler Co., Inc., Subcontractor to
                     Turner Construction Company, Contract Number GS-02P-95-DTC-0014

03/20/03   A020251   Audit of Claim for Increased Costs: The Cleveland Marble Mosaic Company,
                     Contract Number GS-05P-99-GBC-0043

03/21/03   A020133   Preaward Audit of a Claim for Increased Costs: Cosco Fire Protection, Inc.,
                     Subcontractor to Morse Diesel International, Inc., U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

03/25/03   A030140   Limited Scope Review of Termination Claim: Science Applications International
                     Corporation, Contract Number GS-35F-4461G, Task Order Number T0002SJ0159

05/02/03   A030106   Preaward Audit of a Claim for Increased Costs: George Foss Company,
                     Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                     Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032




                                                                            Office of Inspector General 59
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                         Title


05/06/03        A030142         Preaward Audit of Construction Management Services Contract: Gilbane Building
                                Company, Solicitation Number GS-02P-02-DTC-0031N

05/19/03        A030092         Preaward Audit of a Termination Settlement Proposal: L&H Construction Co., Inc.,
                                Contract Number GS-02P-99-DTC-0013

05/29/03        A020230         Preaward Audit of a Claim for Increased Costs: C.E. Toland & Son, Subcontractor
                                to Morse Diesel International, Inc., U.S. Courthouse & Federal Building,
                                Sacramento, California, Contract Number GS-09P-95-KTC-0032

06/02/03        A030138         Audit of Claim for Increased Costs: Hunt Construction Group, Inc., Contract
                                Number GS-05P-96-GBC-0015

08/08/03        A030177         Review of Incurred Costs: Jacobs Facilities, Inc., Contract Number GS-11P-98-
                                MYD-0015

08/28/03        A030199         Audit of Claim for Increased Costs: Dick Corporation, Contract Number GS-05P-
                                97-GBC-0011

09/23/03        A030236         Preaward Audit of Architect and Engineering Services Contract: Atkinson Koven
                                Feinberg Engineers, LLP, Consultant to Perkins Eastman Architects, PC,
                                Solicitation Number GS-02P-03-DTD-0008(N)

09/29/03        A030152         Preaward Audit of a Claim: J.A. Jones Construction Group, LLC, Contract Number
                                GS-02P-99-DTC-0006

09/30/03        A030264         Preaward Audit of Cost and Pricing Data: Kelly’s Cleaning Services, Inc.,
                                Solicitation Number GS-02P-03-PIC-0028

10/09/03        A030247         Preaward Audit of Architect and Engineering Design Services Contract: Syska
                                Hennessy Group, Inc., Solicitation Number GS11P02MKC0057

10/09/03        A030248         Preaward Audit of Architect and Engineering Design Services Contract: STUDIOS
                                Architecture, Solicitation Number GS11P02MKC0057

10/09/03        A030250         Preaward Audit of Architect and Engineering Design Services Contract: Thorton-
                                Tomasetti-Cutts LLC, Solicitation Number GS11P02MKC0057

10/09/03        A030244         Preaward Audit of Architect and Engineering Design Services Contract: Shalom
                                Baranes Associates, Solicitation Number GS11P02MKC0057

10/16/03        A030225         Preaward Audit of Claim: AMEC Construction Management, Inc., Contract Number
                                GS-11P96MKC0015

10/29/03        A030181         Limited Scope Postaward Audit of Multiple Award Schedule Contract: R.S.
                                Information Systems, Inc., Contract Number GS-35F-5355H



60 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                   Title


11/04/03   A030261   Preaward Audit of Architect and Engineering Services Contract: Perkins Eastman
                     Architects, P.C., Solicitation Number GS-02P-03-DTD-0008(N)

11/20/03   A040054   Preaward Audit of Multiple Award Schedule Contract: The Public Strategies Group,
                     Inc., Contract Number GS-10F-0023J

12/05/03   A030241   Audit of Claim for Increased Costs: BPI Mechanical, Inc., Subcontractor to AMEC
                     Construction Management, Inc., Contract Number GS-11P-96-MKC-0015

12/17/03   A030168   Preaward Audit of Multiple Award Schedule Contract: Dynamic Systems, Inc.,
                     Solicitation Number FCIS-JB-980001B

12/17/03   A040001   Preaward Audit of Multiple Award Schedule Contract: Concord Communications,
                     Incorporated, Solicitation Number FCIS-JB-980001B

12/31/03   A030172   Preaward Audit of a Claim: Cord Contracting Co., Inc., Subcontractor to J.A. Jones
                     Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

12/31/03   A030215   Preaward Audit of a Claim: A&L Construction Corporation, Subcontractor to J.A.
                     Jones Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

01/12/04   A040067   Audit of Claim for Increased Costs: C.J. Coakley Co., Inc., Subcontractor to AMEC
                     Construction Management, Inc., Contract Number GS-11P-96-MKC-0015

01/12/04   A040098   Preaward Audit of Supplemental Architect and Engineering Services Contract:
                     Gonzalez Hasbrouck, Inc., Solicitation Number GS-05P-03-GBD-0072

01/13/04   A030265   Interim Audit of Multiple Award Schedule Contract: BearingPoint, LLC, Contract
                     GS-23F-9796H

01/15/04   A030155   Preaward Audit of a Claim: LBL Skysystems, Inc., Subcontractor to J.A. Jones
                     Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

01/16/04   A030234   Preaward Audit of a Claim: KSW Mechanical Services, Inc., Subcontractor to J.A.
                     Jones Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

01/29/04   A030223   Preaward Audit of Claim: John J. Kirlin, Inc., Subcontractor to AMEC Construction
                     Management, Inc., Contract Number GS-11P96MKC0015

02/03/04   A040119   Attestation Review of Supplemental Architect and Engineering Services Contract:
                     Julie Snow Architects, Inc., Solicitation Number GS-05P-03-GBD-0072

03/01/04   A030259   Preaward Audit of a Claim: Airflex Industrial Inc., Subcontractor to J.A. Jones
                     Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

03/02/04   A040004   Preaward Attestation Engagement Review of Multiple Award Schedule Contract
                     Extension: Black Box Corporation, Contract Number GS-35F-0158J


                                                                            Office of Inspector General 61
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit
Report         Number                                           Title


03/09/04        A040162         Price Adjustments on Multiple Award Schedule Contract: Nova Solutions, Inc.,
                                Contract Number GS-29F-0173G, for the Interim Period April 1, 2004 Through
                                September 30, 2006

03/09/04        A030186         Postaward Audit of Multiple Award Schedule Contract: Nova Solutions, Inc.,
                                Contract Number GS-29F-0173G, for the Contract Period December 12, 1996
                                Through October 31, 2003

03/19/04        A040105         Attestation Engagement Review of Multiple Award Schedule Contract: Rhombic
                                Systems, Inc., Contract Number GS-35F-0461J

03/23/04        A030191         Preaward Audit of a Claim: Five Star Electric Corp., Subcontractor to J.A. Jones
                                Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

03/31/04        A030230         Preaward Attestation Review of a Claim: Singleton Electric Company, Inc., a
                                Subcontractor to AMEC Construction Management, Inc., Contract Number GS-
                                11P-96-MKC-0015

06/03/04        A040091         Audit of Claim for Increased Costs: Industrial First, Inc., Subcontractor to Hirschfeld
                                Steel Co., Inc., Contract Number GS-05P-97-GBC-0011

06/08/04        A040165         Audit of Claim for Increased Costs: Industrial First, Inc., Subcontractor to Ajay
                                Glass & Mirror Co., Inc., Contract Number GS-05P-97-GBC-0011

06/09/04        A040095         Preaward Audit of a Termination Settlement Proposal: M.L. Benjamin Enterprises,
                                Inc., Contract Number GS-02P-00P-VC-0024

06/15/04        A040095         Audit of Final Contract Payment: M.L. Benjamin Enterprises, Inc., Contract Number
                                GS-02P-00P-VC-0024

06/21/04        A020220         Interim Postaward Review of Multiple Award Schedule Contract: Kipper Tool
                                Company, Contract Number GS-06F-0018L

06/25/04        A040112         Review of Claim for Increased Costs: Ajay Glass & Mirror Co., Inc., Subcontractor
                                to Dick Corporation, Contract Number GS-05P-97-GBC-0011

06/28/04        A040085         Limited Scope Postaward Audit of Multiple Award Schedule Contract: Onboard
                                Software, Inc., Contract Number GS-35F-0117J

06/30/04        A040116         Preaward Review of Multiple Award Schedule Contract Extension: Booz Allen
                                Hamilton Inc., Contract Number GS-35F-0306J

07/01/04        A040143         Review of Claim for Increased Costs: SimplexGrinnell, LP, GS-05P-99-GBC-0015

07/12/04        A040125         Attestation Engagement Review of A/E Services Contract: Cannon Design, Inc.,
                                Solicitation Number GS-02P-03-DTC-0003



62 Semiannual Report to the Congress
  Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of    Audit
Report     Number                                 Title


07/15/04   A040053   Attestation Engagement Review of Supplemental Construction Management
                     Services Contract: Jacobs Facilities Inc., Solicitation Number GS-02P-03-DTD-
                     0030(N)

07/22/04   A040194   Preaward Review of Architect and Engineering Services Contract:        Hellmuth,
                     Obata and Kassabaum, PC, Solicitation Number GS11P04MKC0022

07/23/04   A040196   Preaward Review of Architect and Engineering Services Contract: Systech Group,
                     Inc. - Security Solicitation Number GS11P03MKC0004

07/23/04   A040197   Preaward Review of Architect and Engineering Services Contract: Systech Group,
                     Inc., Fire Protection & Life Safety, Solicitation Number GS11P03MKC0004

08/05/04   A040198   Preaward Review of Architect and Engineering Services Contract:             URS
                     Corporation, Solicitation Number GS11P03MKC0004

08/13/04   A040166   Preaward Review of Multiple Award Schedule Contract:           GovConnection,
                     Incorporated, Solicitation Number FCIS-JB-980001B

08/31/04   A030158   Preaward Audit of a Claim: ADF Steel Corp., Subcontractor to J.A. Jones
                     Construction Group, LLC, Contract Number GS-02P-99-DTC-0006(N)

09/15/04   A040214   Preaward Attestation Engagement Review of Multiple Award Schedule Contract:
                     Symmetricom, Incorporated, Solicitation Number 7FCM-U5-04-6601-B

09/21/04   A040236   Attestation Review of Architect and Engineering Design Services Contract:
                     Richard Fleischman Architects, Inc., Contract Number GS-05P-03-GBC-0096

09/22/04   A040184   Preaward Review of Multiple Award Schedule Contract Extension:         Olympus
                     Industrial America, Inc., Contract Number GS-24F-1275C

09/24/04   A040141   Preaward Attestation Engagement Review of Multiple Award Schedule Contract
                     Extension: Unisys Corporation, Contract Number GS-35F-0343J




                                                                         Office of Inspector General 63
   Appendix III–Audit Reports over 12 Months Old with Final Action Pending


Date of        Audit                                                                                Projected Final
Report         Number                                          Title                                 Action Date


Internal Audits
07/15/99        A82706          PricewaterhouseCoopers LLP Management Letter, Fiscal Year                  Open
                                1998 Financial Statement Audit

05/29/01        A001012         PricewaterhouseCoopers LLP Fiscal Year 2000 Interim and                    10/15/05
                                Year-End Management Letters

09/27/01        A010110         Review of GSA’s Natural Gas Program, Public Buildings                      11/15/05
                                Service

05/10/02        A010187         Audit of the General Services Administration’s Fiscal Years 2001           Open
                                and 2000 Financial Statements

09/30/02        A020056         Audit of Controls Over Reimbursable Work Authorizations Billing            11/15/05
                                Practices in the Greater Southwest Region

03/18/03        A020161         Audit of the Consolidation of Distribution Center Operations:              06/15/06
                                Impact on Shipment Costs & Delivery Times

03/18/03        A020163         Audit of the General Services Administration’s Fiscal Years 2002           Open
                                and 2001 Financial Statements

12/19/03        A030110         PricewaterhouseCoopers,       LLP      Fiscal   Year   2003   EDP          Open
                                Management Letter

12/31/03        A030080         Review of PBS Portfolio Restructuring Initiative                           11/15/05

03/15/04        A020203         Review of GSA’s Process for Establishing Lodging Per Diems                 11/15/05

03/31/04        A030110         Audit of the General Services Administration’s Fiscal Years 2003           10/15/05
                                and 2002 Financial Statements

08/05/04        A020245         Review of FedBizOpps                                                       09/15/06

09/21/04        A040099         Review of GSA’s Awards Program                                             01/15/06

09/27/04        A020204         Review of Federal Supply Service’s Special Order Program in                01/15/06
                                the Heartland Region

09/30/04        A040039         Review of Federal Technology Service E-Authentication                      02/15/06
                                Initiative




64 Semiannual Report to the Congress
                                 Appendix IV–Delinquent Debts


The GSA Office of the Chief Financial Officer provided the following information.

GSA Efforts to Improve Debt                                  GSA representatives held meetings with various
                                                             National Institute for the Blind/National Institute for
Collection                                                   the Severely Handicapped (NIB/NISH) customers to
During the period April 1, 2005 through September 30,        discuss payment of GSA bills. The representatives
2005, the following activities were undertaken by GSA        emphasized all GSA bills must be paid within
in an effort to improve debt collection and reduce the       45 days, including those for items with
amount of debt written off as uncollectible.                 discrepancies.       As a result, the amount of
                                                             outstanding accounts receivable from NIB/NISH
• From April 1, 2005 to September 30, 2005, the GSA          customers has gone up only slightly, from
  Finance Centers referred approximately $1.6 million        $2.4 million as of March 2, 2005, the last time of the
  of delinquent non-Federal claims to the U.S.               report, to $2.5 million as of September 2, 2005.
  Treasury Department (Treasury) for cross-servicing
  collection activities. Collections on non-Federal        • As of September 21, 2005, the District of Columbia
  claims exceeded $219.6 million. Administrative             (DC) Government owed GSA $111,285 for 3 supply
  offsets have resulted in additional collections of         bills over two years old. This is a decrease from the
  $8.2 million. GSA also collects non-Federal claims         38 bills totaling $423,996 they owed as of
  using Pre-Authorized Debits (PADs). From                   March 7, 2005. The DC Government was able to
  April 1, 2005 to September 30, 2005, 38 PADs               obtain special funding to pay the majority of these
  totaling $59,177 were processed.                           old bills. A spreadsheet of all outstanding supply bills
                                                             is sent monthly to the DC Government’s Inspector
• To comply with the Debt Collection Improvement Act         General and Chief Financial Officer (CFO). These
  of 1996, GSA transmits delinquent claims each              old bills were not being paid because the DC
  month to the Treasury Financial Management                 Government had difficulty finding the ordering office
  Service (FMS) for collection via cross-servicing.          and the funding document associated with the
                                                             charges. We have not written these bills off because
• Persistent claims coordination between regional            the DC Government CFO has agreed to request
  contracting officers, Treasury, and our Finance            funding to pay GSA for these bills. A significant
  Centers continues to strengthen our claims                 amount of our non-Federal debt in the Information
  collection efforts. These efforts include exchanging       Technology Fund involves the DC Government and
  necessary information to further the collection            its many offices. We are working diligently with the
  process, such as clarifying the status and                 Federal Technology Service staff to reduce these
  circumstances which initiated the claim, notification      delinquent accounts and settle all disputed amounts
  of bankruptcy actions, and obtaining additional            so we can effect collection. A letter signed by GSA’s
  documentation to support the claim.                        CFO was sent to the DC Government’s CFO on
                                                             August 25, 2005 outlining the poor payment history
• In accordance with OMB Circular A-129, we                  of the DC Government and requesting assistance in
  continue to write off uncollected claims aged over         collection efforts. Since March 2005, we have
  two years old. However, written-off claims due from        reduced the delinquent amount by $6.1 million.
  debtors for which Treasury has a taxpayer
  identification number or social security number          • Department of Defense Contractor, Martin Marietta
  remain in Treasury’s Offset Program (TOP) for up to        Manned Space Systems, refused to pay two GSA
  ten years and can be collected.                            Federal Supply Service bills totaling $3,673.
                                                             Although the bills were over four years old, GSA
• The Profit Recovery Group, through a contract              refused to give up on collecting them. In December
  arrangement with GSA, continues to actively review         2004, the bills were combined and transferred for
  and pursue overpayments in conjunction with our            collection as a non-Federal claim under the
  Accounts Payable Division associates.                      provisions of the Debt Collection Improvement Act.

                                                                                        Office of Inspector General 65
                                  Appendix IV–Delinquent Debts




  When the debtor still refused to pay, the debt was           information about the debtor and the claim to assure
  transmitted to Treasury for collection in March of           a valid legal claim exists. The goal is to reduce the
  2005. Treasury’s private collection contractor               number of vehicle accident claims returned
  collected the full amount of the debt, plus $1,061 in        uncollected from Treasury and written off because
  collection fees, in September 2005.                          they are invalid.

• In April 2005, two large previously unidentified audit       2. AMC reviews all uncollected vehicle accident
  related collections were booked for $1,280,400 and           claims returned to GSA by Treasury. If insurance
  $330,000 from the Trans Union company.                       information on the debtor is available, AMC will call
                                                               the insurance company and make an additional
• Claims procedures are being revised to improve               attempt to collect the claim. AMC has been able to
  claims management and control. Changes include               collect several old vehicle claims since beginning
  increased telephone follow-up contacts on claims             this process.
  over $50,000 and increased efforts to identify invoice
  offsets. We expect these administrative adjustments      • The magnitude of destruction brought on by
  will result in faster claim resolutions.                   Hurricane Katrina has created tremendous problems
                                                             for many citizens. In an effort to assist the victims of
• The GSA Fleet Accident Management Center (AMC)             this disaster, GSA has given Treasury the go-ahead
  recently instituted two new procedures intended to         to place all debt for debtors living in federally
  increase collections and reduce the number and             designated disaster areas on a 120-day hold. As a
  total amount of claims written off.                        result of this disaster, GSA has 13 claims totaling
                                                             $27,332. Only one of the claims is currently at
  1. AMC is now making a final review of all vehicle         Treasury for collection.
  accident claims before they are sent to Treasury for
  collection. The purpose of the review is to verify all


Non-Federal Accounts Receivable

                                                    As of                  As of
                                                 April 1, 2005       September 30, 2005          Difference

  Total Amounts Due GSA                          $90,519,793           $155,957,756             $65,437,963

  Amounts Delinquent                             $76,277,959            $29,789,538             -$46,488,421

  Total Amount Written
  Off as Uncollectible
  Between 4/1/05 and
  9/30/05                                         $3,864,607




66 Semiannual Report to the Congress
                                     Appendix V–Reporting Requirements




The table below cross-references the reporting require-                           Congress in Senate Report No. 96-829 relative to the
ments prescribed by the Inspector General Act of 1978,                            1980 Supplemental Appropriations and Rescission Bill
as amended, to the specific pages where they are                                  and the National Defense Authorization Act is also
addressed.     The information requested by the                                   cross-referenced to the appropriate page of the report.




  Requirement                                                                                                                                    Page

  Inspector General Act

     Section 4(a)(2) – Review of Legislation and Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .26-30

     Section 5(a)(1) – Significant Problems, Abuses, and Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . .2, 14

     Section 5(a)(2) – Recommendations with Respect to Significant
      Problems, Abuses, and Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2, 14

     Section 5(a)(3) – Prior Recommendations Not Yet Implemented . . . . . . . . . . . . . . . . . . . . . . . . . . . .41

     Section 5(a)(4) – Matters Referred to Prosecutive Authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .36

     Sections 5(a)(5) and 6(b)(2) – Summary of Instances Where
      Information Was Refused . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

     Section 5(a)(6) – List of Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .44

     Section 5(a)(7) – Summary of Each Particularly Significant Report . . . . . . . . . . . . . . . . . . . . . . . .2, 14

     Section 5(a)(8) – Statistical Tables on Management Decisions on
      Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .35

     Section 5(a)(9) – Statistical Tables on Management Decisions on
      Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .34

     Section 5(a)(11) – Description and Explanation for Any Significant
      Revised Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

     Section 5(a)(12) – Information on Any Significant Management
      Decisions with Which the Inspector General Disagrees . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .None

  Senate Report No. 96-829

     Resolution of Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .33

     Delinquent Debts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .65

  National Defense Authorization Act, Public Law 104-106, 5 U.S.C. App. 3, § 5 note . . . . . . . . . . .54




                                                                                                                          Office of Inspector General 67
                             Appendix VI–OIG Offices and Key Officials



  Office of the Inspector General
  Inspector General, Brian D. Miller (J) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0450

  Deputy Inspector General, Joel S. Gallay (JD) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1362


  Office of Counsel to the Inspector General
  Counsel to the IG, Kathleen S. Tighe (JC) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1932

  Deputy Counsel to the IG, Virginia S. Grebasch (JCD) . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1932


  Office of Internal Evaluation
  Director, James A. Amoroso (JE) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-2460


  Office of Audits
  Assistant IG for Auditing, Eugene L. Waszily (JA) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-0374

  Principal Deputy Assistant IG for Auditing, Andrew Patchan, Jr. (JAD) . . . . . . . . . . . . . . . .(202) 501-0374


  Programmatic Audit Office Deputy Assistant Inspectors General for Auditing (DAIGAs)
  Finance & Administrative Audit Office, DAIGA Kristin R. Wilson (JA-F) . . . . . . . . . . . . . . .(202) 501-0006

  Information Technology Audit Office, DAIGA Gwendolyn A. McGowan (JA-T) . . . . . . . . . .(703) 308-1223

  Acquisition Programs Audit Office, DAIGA Kenneth L. Crompton (JA-A) . . . . . . . . . . . . . .(703) 603-0189
  Real Property Audit Office, DAIGA Regina M. O’Brien (JA-R) . . . . . . . . . . . . . . . . . . . . . .(202) 219-0088


  Regional Inspectors General for Auditing (RIGAs)
  National Capital Region Field Office, RIGA Paul J. Malatino (JA-W) . . . . . . . . . . . . . . . . .(202) 708-5340

  New England Field Office, RIGA Joseph B. Leland (JA-1) . . . . . . . . . . . . . . . . . . . . . . . . .(617) 565-6795

  Northeast and Caribbean Field Office, RIGA Joseph M. Mastropietro (JA-2) . . . . . . . . . . .(212) 264-8620

  Mid-Atlantic Field Office, RIGA Glenn D. Merski (JA-3) . . . . . . . . . . . . . . . . . . . . . . . . . . .(215) 446-4840

  Southeast Sunbelt Field Office, RIGA James D. Duerre (JA-4) . . . . . . . . . . . . . . . . . . . . .(404) 331-5125

  Great Lakes Field Office, RIGA David K. Stone (JA-5) . . . . . . . . . . . . . . . . . . . . . . . . . . . .(312) 353-7781




68 Semiannual Report to the Congress
                         Appendix VI–OIG Offices and Key Officials



Regional Inspectors General for Auditing (RIGAs) continued
The Heartland Field Office, RIGA Arthur L. Elkin (JA-6) . . . . . . . . . . . . . . . . . . . . . . . . . . .(816) 926-7052

Greater Southwest Field Office, RIGA Rodney J. Hansen (JA-7) . . . . . . . . . . . . . . . . . . . .(817) 978-2572

Pacific Rim Field Office, RIGA Joseph J. Brewster (JA-9) . . . . . . . . . . . . . . . . . . . . . . . . .(415) 522-2744

  Auburn Sub-Office, Audit Manager Larry L. Pellegrini (JA-9/AUB) . . . . . . . . . . . . . . . . .(253) 931-7650


Office of Investigations
Assistant IG for Investigations, James E. Henderson (JI) . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-1397

Deputy Assistant IG for Investigations, Charles J. Augone (JID) . . . . . . . . . . . . . . . . . . . .(202) 501-1397


Regional Inspectors General for Investigations (RIGIs)
Washington Zone Office, RIGI Gregory G. Rowe (JI-W) . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 252-0008

  Philadelphia Sub-Office, Special Agent James Barry (JI-W/P) . . . . . . . . . . . . . . . . . . . .(215) 446-4830

New York Zone Office, RIGI Daniel J. Walsh (JI-2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(212) 264-7300

  Boston Sub-Office, Assistant RIGI Joseph J. Dziczek (JI-2/B) . . . . . . . . . . . . . . . . . . . .(617) 565-6820

Chicago Zone Office, RIGI Harvey G. Florian (JI-5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(312) 353-7779

  Kansas City Sub-Office, Assistant RIGI John F. Kolze (JI-5/KC) . . . . . . . . . . . . . . . . . . .(816) 926-7214

Fort Worth Zone Office, RIGI Charles D. Yandell (JI-7) . . . . . . . . . . . . . . . . . . . . . . . . . . .(817) 978-2589

  Atlanta Sub-Office, Assistant RIGI Lee P. Quintyne (JI-7/G) . . . . . . . . . . . . . . . . . . . . . .(404) 331-5126

San Francisco Zone Office, RIGI Liza Shovar (JI-9) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .(415) 522-2755

  Auburn Sub-Office, Special Agent Terry J. Pfeifer (JI-9/A) . . . . . . . . . . . . . . . . . . . . . . . .(253) 931-7654


Office of Administration
Assistant IG for Administration, John C. Lebo, Jr. (JP) . . . . . . . . . . . . . . . . . . . . . . . . . . . .(202) 501-2319

  Human Resources Division, Director Arrie Etheridge (JPH) . . . . . . . . . . . . . . . . . . . . . .(202) 501-0360

  Information Technology Division, Director Margaret A. Hamilton (JPM) . . . . . . . . . . . . .(202) 501-3134

  Administrative and Financial Management Division, Director Marta M. Viera (JPF) . . . .(202) 501-2887




                                                                                                   Office of Inspector General 69
                                       Notes




70 Semiannual Report to the Congress
Make
like
it’s
your
money!
It is.
To report suspected waste, fraud, abuse, or
mismanagement in GSA, call your


Inspector General’s Hotline
Toll-free 1-800-424-5210
Washington, DC metropolitan area
(202) 501-1780

or write: GSA, IG, Hotline Officer
          Washington, DC 20405

or access the Web: www.gsa.gov/fraudnet

Office of Inspector General
U.S. General Services Administration
Office of Inspector General
U.S. General Services Administration
1800 F Street, NW
Washington, DC 20405
http://www.gsa.gov/inspectorgeneral
